<html>
<title> - HEARING TO REVIEW THE TECHNOLOGIES IN THE MEAT INDUSTRY</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]





        HEARING TO REVIEW THE TECHNOLOGIES IN THE MEAT INDUSTRY

=======================================================================

                                HEARING

                               BEFORE THE

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 30, 2007

                               __________

                           Serial No. 110-34


          Printed for the use of the Committee on Agriculture
                         agriculture.house.gov








                  U.S. GOVERNMENT PRINTING OFFICE
50-470                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office  Internet: bookstore.gov Phone: toll free (866) 512-1800 
Fax: (202) 512-2250  Mail: Stop IDCC, Washington, DC 20402-0001








                        COMMITTEE ON AGRICULTURE

                COLLIN C. PETERSON, Minnesota, Chairman

TIM HOLDEN, Pennsylvania,            BOB GOODLATTE, Virginia, Ranking 
    Vice Chairman                    Minority Member
MIKE McINTYRE, North Carolina        TERRY EVERETT, Alabama
BOB ETHERIDGE, North Carolina        FRANK D. LUCAS, Oklahoma
LEONARD L. BOSWELL, Iowa             JERRY MORAN, Kansas
JOE BACA, California                 ROBIN HAYES, North Carolina
DENNIS A. CARDOZA, California        TIMOTHY V. JOHNSON, Illinois
DAVID SCOTT, Georgia                 SAM GRAVES, Missouri
JIM MARSHALL, Georgia                JO BONNER, Alabama
STEPHANIE HERSETH SANDLIN, South     MIKE ROGERS, Alabama
Dakota                               STEVE KING, Iowa
HENRY CUELLAR, Texas                 MARILYN N. MUSGRAVE, Colorado
JIM COSTA, California                RANDY NEUGEBAUER, Texas
JOHN T. SALAZAR, Colorado            CHARLES W. BOUSTANY, Jr., 
BRAD ELLSWORTH, Indiana              Louisiana
NANCY E. BOYDA, Kansas               JOHN R. ``RANDY'' KUHL, Jr., New 
ZACHARY T. SPACE, Ohio               York
TIMOTHY J. WALZ, Minnesota           VIRGINIA FOXX, North Carolina
KIRSTEN E. GILLIBRAND, New York      K. MICHAEL CONAWAY, Texas
STEVE KAGEN, Wisconsin               JEFF FORTENBERRY, Nebraska
EARL POMEROY, North Dakota           JEAN SCHMIDT, Ohio
LINCOLN DAVIS, Tennessee             ADRIAN SMITH, Nebraska
JOHN BARROW, Georgia                 TIM WALBERG, Michigan
NICK LAMPSON, Texas
JOE DONNELLY, Indiana
TIM MAHONEY, Florida

                                 ______

                           Professional Staff
                    Robert L. Larew, Chief of Staff
                     Andrew W. Baker, Chief Counsel
                 April Slayton, Communications Director
           William E. O'Conner, Jr., Minority Staff Director

                                  (ii)















                             C O N T E N T S

                              ----------                              
                                                                   Page
Baca, Hon. Joe, a Representative in Congress from California, 
  prepared statement.............................................     3
Boswell, Hon. Leonard L., a Representative in Congress from Iowa, 
  prepared statement.............................................     3
Goodlatte, Hon. Bob, a Representative in Congress from Virginia, 
  opening statement..............................................     2
Graves, Hon. Sam, a Representative in Congress from Missouri, 
  prepared statement.............................................     4
Peterson, Hon. Collin C., a Representative in Congress from 
  Minnesota, opening statement...................................     1
    Prepared statement...........................................     2
Smith, Hon. Adrian, a Representative in Congress from Nebraska, 
  prepared statement.............................................     4

                               Witnesses

Minerich, Ph.D., Phillip L., Vice President, Research and 
  Development, Hormel Foods Corporation, Medina, OH..............     5
Presentation.....................................................     7
Eilert, Ph.D., Scott, Vice President, Research and Development, 
  Cargill Meat Solutions Corporation, Wichita, KS................    23
    Prepared statement...........................................    25
Roop, Ph.D., Richard, Senior Vice President, Science and 
  Regulatory Affairs, Tyson Foods, Inc., Washington, D.C.........    27
    Prepared statement...........................................    28
Sebranek, Ph.D., Joseph G., University Professor, Department of 
  Animal Science and Department of Food Science, Iowa State 
  University, Ames, IA...........................................    31
    Prepared statement...........................................    33
Almanza, Alfred V., Administrator, Food Safety and Inspection 
  Service, U.S. Department of Agriculture, Washington, D.C.; 
  accompanied by Philip S. Derfler, Assistant Administrator; and 
  Daniel L. Englejohn, Ph.D., Deputy Assistant Administrator, 
  Office of Policy, Program and Employee Development, Food Safety 
  and Inspection Service, U.S. Department of Agriculture.........    57
    Prepared statement...........................................    59

                           Submitted Material

Brown, Michael J., Senior Vice President, Legislative Affairs, 
  American Meat Institute, submitted material....................    75
Food & Water Watch, submitted Fact Sheet and chart...............    72
Kaster, Collette Schultz, President; and Thomas Powell, Executive 
  Director, American Meat Science Association, prepared statement    69
Roop, Ph.D., Richard, Senior Vice President, Science and 
  Regulatory Affairs, Tyson Foods, Inc., response and 
  supplemental material..........................................   106
Rosenbaum, Donna, Safe Tables Our Priority; Consumer Federation 
  of America; and Food & Water Watch, Government Accountability 
  Project, prepared statement....................................    70
Sebranek, Ph.D., Joseph G., University Professor, Department of 
  Animal Science and Department of Food Science, Iowa State 
  University, Sebranek et al., published article on meat 
  packaging technology...........................................   105
  Articles maintained in Committee files.

 
        HEARING TO REVIEW THE TECHNOLOGIES IN THE MEAT INDUSTRY

                              ----------                              


                       TUESDAY, OCTOBER 30, 2007

                          House of Representatives,
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Committee met, pursuant to call, at 1:32 p.m., in Room 
1300 of the Longworth House Office Building, Hon. Collin C. 
Peterson [Chairman of the Committee] presiding.
    Members present: Representatives Peterson, Etheridge, 
Boswell, Baca, Scott, Cuellar, Costa, Boyda, Gillibrand, Kagen, 
Pomeroy, Barrow, Goodlatte, Lucas, Moran, Rogers, Musgrave, 
Neugebauer, Walz, Conaway, Schmidt, and Smith.
    Staff present: Nathan Fretz, Alejandra Gonzalez-Arias, 
Chandler Goule, Tyler Jameson, Rob Larew, John Riley, April 
Slayton, Kristin Sosanie, Patricia Barr, John Goldberg, Alise 
Kowalski, Kevin Kramp, Pam Miller, Pete Thomson, and Jamie 
Weyer.

OPENING STATEMENT OF HON. COLLIN C. PETERSON, A REPRESENTATIVE 
                   IN CONGRESS FROM MINNESOTA

    The Chairman. We have a vote in about 10 minutes, so I want 
to get started anyway and then we will probably have to take a 
short recess. Good afternoon and welcome to today's hearing of 
the House Agriculture Committee. I want to thank the witnesses 
for being with us here today. And today's hearing is an 
opportunity to hear from those who develop, use, and regulate 
technologies used in the meat industry from slaughter through 
packaging. I view this hearing today as an informative, 
educational hearing. This came about because of a presentation 
that was done for me and my district where I was given an 
overview of this technology in all different aspects. I learned 
a lot of things that I did not know. And I felt that it would 
be useful for the Members to have this overview to get a better 
understanding of what the issues are and what the different 
technologies are. So we are actually going to have some 
packaging here that is going to be passed around for you to 
take a look at. And I just thought it would be good, given all 
the focus there is on food safety, for us to have a better 
understanding. So I have asked the folks that use this, work 
with it, develop it, to come in and explain to us the pros and 
cons of the different technologies. And then also hear from the 
regulators and scientists that have looked at this and approved 
it and so forth through the rule-making process. We could end 
up having more hearings on this where we would at that time 
bring in the advocacy groups, consumer groups, farm groups, 
other folks that have different viewpoints and axes to grind to 
come in and give their points of view later on. But what I am 
interested in today is really educational, informational and I 
hope everybody can view it that way.
    I would say that one of the people that have been involved 
in this issue, I believe their name is Kalsec<SUP>'</SUP>, was 
invited to come twice by this Committee. They have not seen fit 
to be here today and I wanted to make it clear that I am 
disappointed in that because I wanted to have everybody that 
has been involved in this issue. They are the company that 
actually petitioned the FDA to change the current system and so 
it is unfortunate that, for whatever reason, they didn't want 
to be here.
    I also want to welcome today the FSIS Administrator 
Almanza, who will be testifying. This is his first opportunity 
to testify at the Agriculture Committee and he will be 
providing an overview of the agency's activities to improve and 
encourage industry to implement new technologies that improve 
food safety.
    And I think that our interest in this Committee is that 
whatever we end up doing in this regard improves food safety, 
makes food safer for the American people and is based on sound 
science and developed in public view, so everybody can 
understand how we get where we are.
    [The prepared statement of Mr. Peterson follows:]

  Prepared Statement of Hon. Collin C. Peterson, a Representative in 
                        Congress From Minnesota
    Good afternoon and welcome to today's hearing of the House 
Agriculture Committee. Today's hearing is an opportunity for the 
Committee to hear from those who develop, use and regulate technologies 
used in the meat industry from slaughter through packaging.
    Over the past several decades, technology has improved the quality 
and safety of meat products available to consumers. We have moved from 
an inspection system that relied on sight and smell to a system that 
uses microbiological testing for dangerous pathogens. Technology has 
increased the shelf life of meat products and reduced costs both for 
processors and consumers.
    I would like to welcome FSIS Administrator Al Almanza who will be 
testifying today. This is his first opportunity to testify at the 
Agriculture Committee, and he will be providing an overview of the 
agency's activities to approve and encourage industry to implement new 
technologies that improve food safety.
    My purpose for holding this hearing is to educate the Committee and 
the public about the development, use and regulation of new 
technologies in the meat industry. I appreciate our witnesses for being 
here today and look forward to their testimony.

    The Chairman. With that, again, I would welcome all the 
witnesses and I would be glad to recognize my good friend, the 
Ranking Member from Virginia, Mr. Goodlatte.

 OPENING STATEMENT OF HON. BOB GOODLATTE, A REPRESENTATIVE IN 
                     CONGRESS FROM VIRGINIA

    Mr. Goodlatte. Well, thank you, Mr. Chairman. I appreciate 
your holding this informational hearing and I would like to 
extend my gratitude to those witnesses who have traveled to 
Washington to appear before the Committee.
    Today the Committee will be considering questions related 
to certain packaging technologies utilized in the meat and 
poultry industry. Specifically, we will be discussing modified 
atmosphere packaging using carbon monoxide. Over the last 
couple of years, several proposals have been introduced as 
amendments, stand-alone bills or as a part of a larger 
legislative initiative that would impose restrictions on the 
use of carbon monoxide packaging in meat, poultry and seafood. 
Other food uses of this technology would be unaffected by these 
proposals.
    While I recognize that there may be some legitimate 
questions regarding the applicability any new food technology 
has, I would underscore the fact that the Congress has 
established procedures wherein experts within the regulatory 
agencies, operating in many cases with the advice of the 
scientific community, conduct extensive evaluations of these 
technologies before rendering a decision on their safety. The 
Congress of the United States is not a scientific body. We have 
neither the expertise nor the resources to conduct safety 
evaluations on food technologies. Having established a 
transparent, science-based process, it is essential that we 
allow this process to operate.
    I do think it is important that the Members of the 
Committee be assured that that process is operating and that 
the people who are working in it are fully aware of what the 
important issues are that they are addressing and that is why I 
think it is very important that we hear from these witnesses 
today.
    So Mr. Chairman, I thank you and yield back.
    The Chairman. I thank the gentleman.
    I would ask that all other Members submit their statements 
for the record.
    [The prepared statements of Messers. Boswell, Baca, Graves, 
and Smith follow:]

  Prepared Statement of Hon. Leonard L. Boswell, a Representative in 
                           Congress From Iowa
    I would like to thank the Chairman, Mr. Peterson and Ranking Member 
Goodlatte for holding this important hearing today and would like to 
give a special thanks to our witnesses for offering their insight into 
the current technologies in the meat industry. I look forward to 
hearing your testimony.
    As Chairman of the Livestock, Dairy & Poultry Subcommittee 
oversight of the new technologies in the meat industry is of great 
interest to me.
    The witnesses today will give us an accurate picture of what the 
industry is doing today and hopefully where we can expect to go in the 
future.
    Today we will hear about high and low oxygen packaging, case ready, 
and Modified Atmosphere Packaging (MAP), amongst others. I am hopeful 
this hearing will not solely focus on MAP technologies but all the new 
technologies that the industry is currently doing and what we can 
expect to see as we look to the future in meat packing.
    I would specifically like to welcome Dr. Joe Sebranek from Iowa 
State University. As a leader in animal and meat science I look forward 
to the scientific background he will be able to offer here today.
    The United States is in a very unique position; we have the safest, 
most plentiful, and most affordable food supply in the world. If we 
wish to continue to pay the lowest percentage of disposable income of 
developed nations we must continue to strive to find the next new 
technology, the best innovation.
    Once again I would like to thank our witnesses and look forward to 
their testimony.
                                 ______
                                 
Prepared Statement of Hon. Joe Baca, a Representative in Congress From 
                               California
    Chairman Peterson and Ranking Member Goodlatte:

    I am pleased to be here today to discuss technology in the meat and 
meat packaging industries, and the best possible methods to ensure 
America's consumers are eating only the safest products available.
    I thank the Chairman and Ranking Member for convening this hearing 
and hope we will be able to gain insight into the different options 
available for the packaging of fresh meat--and the advantages and 
disadvantages of each.
    I also want to thank each of our witnesses for coming here today 
and taking time from their busy schedules to help us in Congress better 
understand this often complex issue.
    Everyone in this room is aware of the recent recalls of E. coli 
tainted beef from the Topps Beef Company in New Jersey.
    We are here today to explore the proper balance between innovations 
in food technology and the safety of America's consumers.
    We are also here to ensure the economic security of America's 
cattlemen and the meat packaging and cutting industries.
    This is an issue of the utmost importance. We must keep America's 
beef supply safe.
    In recent months, we have had recalls of foreign products ranging 
from pet food, to toothpaste, to toys. The last thing we need is to 
become reliant on foreign countries for our meat and beef needs.
    Mr. Chairman, all the Members of this Committee know that perhaps 
the most important part of our job is to keep the American consumer 
safe.
    We must find a way to do this without reducing the quality of our 
products, and without endangering the livelihood of thousands of 
Americans who make their living on livestock and meat packaging 
operations.
    I look forward to hearing from all of you today and thank the 
Chairman and Ranking Member again for their leadership.
    Thank you.
                                 ______
                                 
  Prepared Statement of Hon. Sam Graves, a Representative in Congress 
                             From Missouri
    Thank you, Chairman Peterson and Ranking Member Goodlatte for 
holding this hearing.
    Oversight of the safety of the American food supply is one of the 
most important mission's of this Committee, and I think it is a credit 
to the Chairman and Ranking Member of this Committee that we are 
holding this hearing today to focus on new technology in the meat 
industry, and what impact that technology has most importantly on 
safety, but also on marketability and consumer satisfaction. I look 
forward to hearing from Administrator Almanza as he testifies before 
this Committee for the first time, as well as from our distinguished 
witnesses from the meat industry and academic world.
    With regard to this issue, I believe it is paramount that the 
government evaluates all new technology with safety in mind first, and 
after ensuring that a fundamental level of safety exists for a 
technology, then allowing consumers to make the determination regarding 
which product they want to purchase at the grocery store. Consumers 
will be happier if they are provided with the most possible options 
that can be guaranteed as safe.
    Thank you again Chairman Peterson and Ranking Member Goodlatte for 
holding the hearing.
                                 ______
                                 
 Prepared Statement of Hon. Adrian Smith, a Representative in Congress 
                             From Nebraska
    Good afternoon and thank you, Mr. Chairman.
    The meat industry is extremely important to Nebraska. Nebraska has 
81 animal slaughter facilities (excluding poultry processing), more 
than any other state, except Texas, California, and Iowa. Nebraska 
leads the nation in value of meat product shipments, with almost $10.5 
billion in receipts. Nebraska's meat packing industry employs over 
20,000 people, more than any other state, with an annual payroll of 
nearly $550 million. Clearly, the meat industry is important to 
Nebraska's economy.
    I am pleased that we are holding this hearing today, and I look 
forward to hearing the testimony of our knowledgeable witnesses. I hope 
that what we learn today about the technologies of the meat industry 
will allow us to aggressively pursue new markets and breakdown barriers 
to trade, with the assurance that our products are the safest in the 
world.
    I want to thank our witnesses for coming here today to provide 
testimony for the Committee, and I look forward to hearing from you.
    I appreciate the Committee for holding this hearing as an important 
step to meeting our goals.
    Mr. Chairman, I look forward to continuing to work with you, and I 
thank you for your time.

    The Chairman. We probably have 10 minutes before we have to 
leave to vote, I thank the gentleman. Now, we have Dr. 
Minerich.
    Dr. Minerich. Minerich.
    The Chairman. Minerich. Okay, sorry. Vice President of 
Research and Development at Hormel. I think we have time for 
your testimony, then we have two votes, we are going to take a 
break and we will come back and get to the rest of the panel. 
So, Doctor, welcome to the Committee and are we going to pass 
around some of that stuff or how are we going to do that?
    Dr. Minerich. Do it during the question and answer period.
    The Chairman. We will do that during question and answer, 
okay. Go ahead, Doctor.

         STATEMENT OF PHILLIP L. MINERICH, Ph.D., VICE
PRESIDENT, RESEARCH AND DEVELOPMENT, HORMEL FOODS CORPORATION, 
                           MEDINA, OH

    Dr. Minerich. Thank you, Mr. Chairman. You should have a 
package like this in front of you and I will reference certain 
page numbers if you want some visual aids during my 
conversation. I am Dr. Phil Minerich, Vice President of 
Research and Development for Hormel Foods Corporation and I do 
thank you for this opportunity to talk about this important 
topic.
    I am here today to discuss advances in meat packaging 
technology, specifically the many benefits of low-oxygen 
packaging. On page 2, you will see that Hormel Foods is a 116 
year old company with a long and proud history of innovations 
in the food packaging and food safety environment. This 
stretches back to products such as Spam<SUP>'</SUP> and Dinty 
Moore<SUP>'</SUP> that represented packaging breakthroughs in 
their day and have provided safe, flavorful and nutritious 
meals for several generations of Americans.
    On page 3, you will see one of those innovations that 
continues today with products such as our Natural 
Choice<SUP>'</SUP>, which uses a new, high-pressure processing 
technology that literally kills bacteria and allows us to 
remove chemical preservatives from processed foods. We are the 
leader in the nation in this technology and have invested a 
great deal in bringing it to the market.
    On page 7, you will see how important packaging technology 
is to the food industry, delivering food to consumers in a safe 
and convenient format is fundamental to our business. Oxygen 
deteriorates food. It causes oils to turn rancid, meat to turn 
brown, vegetables to discolor and cheese to spoil. And by 
removing oxygen from food packaging and replacing it with 
another gas, such as carbon dioxide or nitrogen, food producers 
can ensure their products remain fresh for consumers longer. 
This process is common throughout the food industry and has 
been used for decades. All of the packaging systems you see 
here use some form of modified atmosphere packaging.
    On page 10, I will briefly talk about some specific meat 
packaging technologies and how they have evolved, significantly 
evolved, becoming more controlled and thereby safer for the 
American public. Years ago, the bulk of our meat supply was 
packaged at the retail level, which created greater opportunity 
for contamination to be introduced into the system. Today, the 
bulk of our meat supply is packaged in facilities that are USDA 
inspected, follow good manufacturing practices and adhere to 
HAACP guidelines. Once packaged, the product is not touched 
again until it reaches the consumer's home.
    On page 11, you will see meat producers who have enhanced 
convenience and safety by introducing numerous packaging 
formats over the years and these are just some of the examples 
that greet consumers at the retail level. Consumers, who once 
relied on their neighborhood butcher, have come to rely on 
these packages backed by strong national brands to deliver 
consistent quality and safety. Please note, a critical 
component of this packaging is the sell-by date. In a majority 
of the packages you see, color is not an accurate indicator of 
freshness either because the product is vacuum-sealed or 
because the product itself, whether it be chicken, pork or 
turkey, does not change color as it ages. In fact, color can be 
a very poor indicator of freshness.
    On page 14, I would like to briefly highlight one packaging 
system, high-oxygen packaging, which actually accelerates the 
rancidity of meat while maintaining its red color. And once out 
of the package, a product that is packaged in high oxygen can 
actually look cooked even though it is cooked below the 
recommended temperature for safety.
    Page 19, low-oxygen packaging has been reviewed and 
approved by a long list of safety experts and food scientists 
that are acclaimed throughout the world. These scientists have 
endorsed this technology for the same reasons we use it and for 
the same reasons the consumers have embraced it, it works.
    On page 23, you will see that low-oxygen packaging retards 
spoilage, delivers high-quality product that is consistent, 
clean and safe. In addition, the packaging eliminates 
opportunities for cross-contamination. It is tamper evident, it 
is leak proof and it is packaged and dated under a USDA 
inspection, which complies with the 9/11 initiatives for food 
safety and enhanced consumer confidence and consumer safety.
    Critics of this technology have focused on the fact that 
the color of the product remains red whatever the condition of 
the product. But on page 25, you will see color is not the only 
or even the best indicator of freshness. Consumers also rely on 
sell-by dates, not only for meat products but other foods. Also 
for batteries, medications, film and all types of consumer 
products.
    Let me close on page 28 by stating the product has been in 
the market 4 years and it has been extremely well-received by 
retailers and our consumers. In fact, it is one of the highest 
acceptance rates of any product that we have ever introduced, 
over 120 million packages, more than 600 million servings. And 
during this time no documented cases of food-borne illness have 
been reported. As a matter of fact, our complaint ratio rivals 
the legendary Maytag repairman. Our consumers love the product 
because it delivers exceptional flavor and texture in a clean 
and safe package. Thank you very much.
    [The presentation by Dr. Minerich follows:]

                                 Page 1



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




    The Chairman. I thank the gentleman. How much time do we 
have? Six minutes? I think we are going to have to recess the 
Committee. We just have two votes. We should be back in 10, 15 
minutes, so we appreciate your patience and we will be back 
shortly.
    [Recess]
    The Chairman. The Committee will come back to order. We 
next have Scott Eilert, the Vice President of Research and 
Development for Cargill Meat Solutions, Wichita, Kansas. I 
guess it is Dr. Eilert?
    Dr. Eilert. Yes.
    The Chairman. Welcome to the Committee and we would be 
happy to hear your testimony.

       STATEMENT OF SCOTT EILERT, Ph.D., VICE PRESIDENT,
 RESEARCH AND DEVELOPMENT, CARGILL MEAT SOLUTIONS CORPORATION, 
                          WICHITA, KS

    Dr. Eilert. Okay. Thank you, Chairman Peterson and the 
Committee. We really appreciate the opportunity to visit with 
you today about innovations and advancements in food safety and 
quality. We also want to recognize this Committee for its 
contribution to ensuring a safe and wholesome food supply to 
our population. We really see you as effective partners in that 
goal and we thank you for all of your efforts.
    I am going to spend some time today talking to you about an 
innovation that we think has been pretty important in the last 
few years in moving to a safer and more wholesome and more 
fresh food supply, meat supply, and that is the adoption of 
modified atmosphere packaging.
    Through modified atmosphere packaging, we are able to 
deliver to the consumer a product that has less chances for 
cross-contamination at retail level and as well as at store 
level. It also has conveniences and safety assurances, such as 
a tamper-proof package and a leak-proof package inclusive also 
of a mandated user freeze-by date.
    Now, there have been several Members of Congress over the 
last couple of years, as was pointed in the introductory 
comments, that have been very critical of this technology. They 
believe that we are deceiving consumers with the advancement of 
this technology. My remarks today are going to hopefully ensure 
to you that that is not our intent or purpose. Rather, our 
intent and purpose is to ensure a safe, high-quality, wholesome 
food supply to our consumers and that is our primary goal.
    Let us talk a little bit about how meat arrives at the 
retail store today. As Dr. Minerich has pointed out, there are 
a couple of avenues. In conventional systems, the meat may be 
vacuum packaged and sent to a retail store for processing and 
packaging at the retail store. In case-ready packaging, we 
actually cut and package and label that product in a 
centralized facility under USDA inspection. Now, as we think 
about the shelf life of those various formats, whether it be 
conventional packaging or case-ready, in beef, for instance, 
that goes to a retail store, the beef that goes to a retail 
store has roughly a shelf life of around 35 days in a vacuum 
package. The shelf life of case-ready products will vary 
depending on the technology that is used. In low-oxygen 
modified atmosphere packaging that we are speaking about today, 
the shelf life is roughly 35 days. Very similar to the vacuum 
package of beef that typically went to a retail store. The 
shelf life of high-oxygen, case-ready packaging, which is a 
competing technology, it is the technology that we are 
referencing today, is only about 14 to 15 days. A key point 
that we want to make to this Committee: With these advancements 
we are not extending shelf life of fresh meat today, we are 
protecting it. We are making sure that the shelf life potential 
of that product can be realized for the consumer and our 
customers.
    Additionally, protecting shelf life and protecting the 
quality of the product, these are critical precious commodities 
to us. Also what is a precious commodity is the flavor 
experience of that product. And as has been discussed 
previously by Dr. Minerich, oxygen is the enemy of meat flavor. 
And so we have seen several research studies by universities 
that have shown that at the end of shelf life in a high-oxygen 
package, the quality of that product is actually lower than at 
the end of shelf life in a low-oxygen package, even though the 
product was in that low-oxygen package for a longer period of 
time. There is a great maintenance of flavor and natural 
quality of the meat that comes with these packaging 
technologies.
    As we think about why we then use carbon monoxide, it is 
key to remember that as we remove oxygen from these packages, 
meat exists in its natural-colored state, a purplish kind of 
brown state that is the natural color of meat. As we expose 
meat to oxygen, it turns bright red. As we expose meat to low 
levels of carbon monoxide, it turns bright red. So what we are 
trying to do with these modified atmosphere packaging systems 
is deliver the product that works as well for the consumer as 
possible, that has the freshness and flavor of a low-oxygen 
package, has the shelf life maintenance of low-oxygen packaging 
formats and then with small levels of a gas like carbon 
monoxide, we deliver the color that the consumer prefers.
    This campaign of misinformation that has taken place 
against this technology is not advancing food safety and is not 
advancing food quality. It is impeding our ability to advance 
food safety and advance the quality of our products.
    We greatly appreciate the time and attention that this 
Committee is giving to this topic and we want to just further 
emphasize that this unfortunate campaign of misinformation is 
not moving the bar or raising the bar on food safety or 
quality. It is jeopardizing our ability to deliver a high-
quality, wholesome product to our consumers.
    Thank you very much for your time and I'll entertain 
questions at the appropriate time.
    [The prepared statement of Dr. Eilert follows:]

Prepared Statement of Scott Eilert, Ph.D., Vice President, Research and 
      Development, Cargill Meat Solutions Corporation, Wichita, KS
    Thank you Chairman Peterson and Mr. Goodlatte. I appreciate the 
opportunity to speak before you today on innovations in food safety and 
quality. The House Agriculture Committee has for many years been deeply 
committed to the understanding of science and risk in protecting public 
health. For that we are grateful.
    My remarks address one of the most important food safety 
innovations in the harvest and manufacture of safe and wholesome meat 
products--the adoption of Modified Atmosphere Packaging (MAP).
    Through a MAP system, meat is packaged at processing plant and then 
delivered to the retail grocery store in a tray covered with a 
protective film. This helps eliminate the potential for cross 
contamination that can come from human handling both at the retail 
store and in the home. The package is both leak-proof and tamper proof, 
adding additional consumer protections.
    Several Members of Congress have recently raised questions with the 
concern that MAP packaging may allow meat to retain its characteristic 
red coloration for too long, potentially masking spoilage. I appreciate 
the opportunity to help ensure that this technology is more fully 
understood and that that we are deeply committed to consumer 
protection.
    Today beef is typically delivered to a grocery store in one of two 
ways--as boxed product sealed in a vacuum packaged bag, or as 
individual packages ready for display in the meat case for consumer 
purchase. Boxed, vacuum packaged product will be opened at the grocery 
store and cut into steaks or roasts and then wrapped for retail 
display. Case ready products come completely packaged and labeled, and 
will be simply taken from a lined box and placed in the retail display.
    Meat products in a vacuum bag have a shelf life of about 35 days. 
The shelf life of case ready products will vary depending on the use of 
the packaging technology used.
    There are two types of case ready MAP product offerings--those 
packaged in a high oxygen (high-ox) format and those in a low oxygen 
(low-ox) format. Both are good formats, but the low-ox format in many 
respects, has significantly better functionality, especially in the 
area of ensuring freshness and convenience for the consumer.
    Steaks and roasts that are packaged in a low-ox environment have a 
shelf life roughly equivalent to the 35 days of the vacuum bag. Steaks 
and roasts in high-ox packaging have a shorter shelf life of only 14 or 
15 days. You can observe this shelf life concern not only in meat 
packaging but also in produce. As a point of reference, note that the 
spoilage of a head of lettuce accelerates rapidly after the packaging 
is removed.
    It is critical for the Committee to understand that our technology 
does not in any way extend shelf life--rather it protects the shelf 
life in a manner the performs equal to the vacuum package, yet in a 
much more consumer friendly, convenient format.
    It is a given that protecting freshness and shelf life is critical. 
Beyond preserving freshness, low-ox packaging also protects against 
flavor degradation. High levels of oxygen in a high-ox packaging will 
deteriorate the flavor of meat. Many university studies have shown that 
meat in a high ox package can look acceptable, but will have a 
significantly less acceptable flavor than low oxygen products. Low 
oxygen packaging helps to maintain the natural flavor of meat.
    There are numerous additional benefits of low-ox packaging. It 
greatly reduces product waste, helping keep costs down because 
retailers can make larger, more efficient purchasing decisions. It also 
gives consumers the flexibility to plan ahead for meals, rather than 
make more trips to the grocer. It ensures the ability of smaller 
retailers in both rural and very urban areas the opportunity to have a 
diverse product offering. As further protection against product 
failure, our packaging is tamperproof, and includes an imprinted use or 
freeze-by instruction that cannot be removed.
    Let me cover just a little bit about the science of our packaging 
technology.
    One of the challenges with low oxygen packaging is that the removal 
of oxygen has a visual impact on meat coloration. You've probably 
noticed that when you can see a blood vessel through your arm, it can 
appear bluish rather than red. This is because the blood is not exposed 
to oxygen. Once exposed to oxygen, blood becomes red. This principle 
also applies to MAP packaging. To provide the most consumer protection 
and to preserve freshness, we flush all the oxygen from the packaging. 
This process will affect the meat coloration, turning the product 
somewhat purple. As you might imagine, this doesn't look very appealing 
to the customer. In contrast, the traditional grocery tray is more 
exposed to oxygen, and therefore it retains the red color.
    To gain the functional and appearance performance for low-ox 
packaging, we substitute the oxygen with other acceptable and safe 
gasses. One of these gasses we use involves a trace amount of carbon 
monoxide. This is fully approved by the FDA, based on volumes of 
scientific study. As with all MAP products, the packaging gas 
dissipates immediately once the package is opened.
    We want consumers to have all the benefits of MAP. But to do so, 
the package must be as attractive as competing products in the case. We 
believe it unfortunate that there has been misinformation about low 
oxygen MAP. We have seen some retail customers who have found this 
technology serves them and their customers best, find the need to back 
away from it because of pressure campaigns led by a competitor offering 
a different, similarly performing technology. This has led to greater 
waste, less efficiency, and ultimately higher prices for consumers. We 
are hopeful that this will abate.
    We recently had the opportunity to host investigators from the 
House Committee on Energy and Commerce at one of our case ready plants. 
We learned clearly that the most important issue concerning Committee 
Members was the potential that a consumer may not fully understand that 
color is not the only indicator of freshness. For this reason, we have 
decided to add new wording to our labeling. We will now include the 
statement, ``Color is not an indicator of freshness. Please refer to 
use or freeze by dates.'' We believe this effectively addresses the 
concerns of the Committee in protecting public health, while not 
undermining the adoption of the safety and convenience offered through 
case ready packaging.
    In summary, Cargill is deeply committed to serving the needs of our 
customers. Case ready packaging meets the needs of today's consumers, 
and is a very effective way to deliver fresh and wholesome products to 
the retail store. The low ox technology that we have discussed today is 
an important evolution in packaging technology. The pressure campaigns 
against this technology are unfortunate. They are preventing us from 
using this technology to better ensure a safe and high quality meat 
supply to the consumer.
    Again, we thank this Committee for its commitment and leadership in 
the area food safety. I would be pleased to answer any questions.

    The Chairman. Thank you, Dr. Eilert and we appreciate your 
being with us today. Dr. Roop, Senior Vice President of Science 
and Regulatory Affairs for Tyson Foods in Washington. Welcome 
to the Committee.

         STATEMENT OF RICHARD ROOP, Ph.D., SENIOR VICE
 PRESIDENT, SCIENCE AND REGULATORY AFFAIRS, TYSON FOODS, INC., 
                        WASHINGTON, D.C.

    Dr. Roop. Good afternoon, Mr. Chairman, and Members of this 
Committee. My name is Dr. Rick Roop and I manage food safety, 
quality assurance and laboratory services for Tyson Foods. And 
I thank you for inviting me here today to talk about our 
company's efforts to lower the incidence of E. coli O157:H7 in 
beef.
    Controlling microbes is one of the many ways we keep our 
perishable products safe and ensure that they stay safe and 
fresh until they reach the consumer. FSIS data shows that the 
incidence rate of E. coli O157:H7 in ground beef has declined 
since 2000. For 2007, however, FSIS has indicated that there is 
a slight increase in the incidence rate and also an increase in 
beef recalls due to O157:H7. It is noteworthy, however, that 
CDC reports that O157:H7-related illnesses in 2007 are at about 
the same level as they were in 2006. Overall, as the industry 
continues to find better technologies and product handling 
procedures, the decline in incidences is expected to continue.
    Tyson uses several best practice methods to prevent 
contamination and preserve beef safety. Among the key practices 
are hygienic hide and viscera removal, use of steam vacuums on 
key areas of the carcass, use of organic acid solutions on the 
surface of carcasses and parts, treating carcasses with a final 
thermal pasteurization, using antimicrobial carcass washes, 
quickly chilling all carcasses and parts, managing the cold 
chain from the start to finish and, finally, using extensive 
testing to verify that our process controls have worked.
    I would like to discuss three key food safety programs 
developed at Tyson to reduce pathogens in beef. Niche-
Buster<SUP>TM</SUP> targets micro-organisms that could be 
harbored in niche environments. For example, seams and cracks 
of equipment in facilities. The program is employed in every 
beef slaughter and processing plant Tyson owns. A constant 
search and destroy effort is undertaken by our plant quality 
and sanitation experts to eliminate these harborage areas for 
bacteria. Originally for use in preventing Listeria 
contamination in ready-to-eat plants, Niche-Buster<SUP>TM</SUP> 
has proven to be extremely helpful in preventing O157:H7 cross-
contamination in Tyson beef plants.
    The carcass thermal pasteurization technology blasts every 
beef carcass with sufficient heat to raise the surface 
temperature above 160 degrees Fahrenheit, which is an immediate 
kill point for pathogens on the carcass surface. It is a 
validated critical control point in all of our beef slaughter 
HACCP plants.
    Tyson Total N60<SUP>TM</SUP> is a name for a Tyson-
developed, extremely comprehensive and sensitive testing system 
to prevent O157:H7 from contaminating ground beef. Tyson tests 
all raw beef components destined for ground beef production. 
Tyson Total N60<SUP>TM</SUP> is among our most powerful food 
safety tools, as it augments the other anti-microbial programs. 
It is so powerful that it has been adopted by many other 
companies across the industry and recognized by the USDA.
    Tyson believes that programs such as Tyson Total 
N60<SUP>TM</SUP> that find and remove O157:H7 containing meat 
from the ground beef supply chain, have contributed to the 
significant decline in incidents in the U.S. over the last 
several years.
    Tyson Foods Safety and Quality Assurance, FSQA, consists of 
approximately 2,500 professionals. This team works side by side 
with production to ensure the safety and quality of every 
product. Our organizational structure is built to enhance 
independent, non-biased decisions for FSQA managers. All FSQA 
team members, including myself, report parallel to operating 
groups. Training is a key success factor for continuous 
improvement. Tyson Foods' team members are provided ongoing 
food safety and quality assurance training. For example, in 
partnership with the University of Arkansas, Tyson Foods funded 
and helped develop a food safety training and education program 
available to Tyson team members and others throughout industry, 
government and the public.
    Tyson Foods also partners with Texas A&M University to 
offer one of the few industry-sponsored training programs 
approved by the International HACCP Alliance.
    In conclusion, we have made tremendous progress in learning 
how to improve meat safety over the past decade but we 
understand that we can't rest. The world continues to change, 
including the microbial world. Tyson, in addition to our 
colleagues at other food companies, are doing everything we can 
to produce safe, quality products every day. Thank you for your 
time and attention.
    [The prepared statement of Dr. Roop follows:]

   Prepared Statement of Richard Roop, Ph.D., Senior Vice President, 
  Science and Regulatory Affairs, Tyson Foods, Inc., Washington, D.C.
    Good afternoon, Mr. Chairman and Members of this Committee. My name 
is Dr. Rick Roop, and I manage food safety, quality assurance and 
laboratory services for Tyson Foods. Tyson is the world's largest 
producer of meat and poultry, as well as the Nation's second largest 
food company. We are highly committed to food safety innovations, and I 
thank you for inviting me here today to talk about our company's 
efforts to lower the incidence of E. coli O157:H7 in beef.
Preventing Pathogens in Beef
    As you can see from the chart below (which was constructed using 
data from USDA's Food Safety and Inspection Service), the incidence 
rate of E. coli O157:H7 in ground beef has declined since 2000. For 
2007, FSIS has indicated there is a slight increase in the incidence 
rate, and also an increase in beef recalls due to E. coli O157:H7. It 
is noteworthy that the Centers for Disease Control and Prevention 
reports E. coli related illnesses in 2007 at the same level as 2006. 
Overall, as the industry continues to find better technologies and 
product handling procedures; the decline in incidence is expected to 
continue.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Tyson operates nearly 100 food processing plants in 22 states and 
around the world. Our eight beef plants produce \1/4\ of the beef in 
the U.S. With such a significant role in the market--not to mention the 
trust Tyson has earned from consumers and our brand name reputation--
Tyson team members utilize state-of-the-art food safety technologies 
and techniques in our plants. We employ risk assessment, training, 
testing, special handling, anti-microbial treatments, refrigeration and 
sanitation to get the job done.
    When it comes to beef, we assume that every head of cattle entering 
our facility is contaminated with pathogens. Our goal is to prevent the 
potentially contaminated parts of the animal--the exterior of the 
animal and the interior of its digestive tract--from touching the 
uncontaminated parts: the meat. And we use many tools and technologies 
to further prevent contamination and preserve safety.
Tyson Beef Safety Programs
    Several state-of-the-art methods to prevent contamination and 
preserve beef safety are used within Tyson fresh meat facilities. Among 
the key practices are: hygienic hide and viscera removal; use of steam 
vacuums on key areas on the carcass; use of organic acid solutions on 
the surface of carcasses and parts; treating carcasses with a final 
thermal pasteurization; using antimicrobial carcass washes; quickly 
chilling all carcasses and parts; managing the cold chain from start to 
finish and finally, using extensive testing to verify that our process 
controls work and the products are safe.
    Three key food safety programs developed at Tyson to reduce 
pathogens in beef include the ``Niche-Buster<SUP>TM</SUP>,'' ``Carcass 
Thermal Pasteurization,'' and ``Tyson Total N60<SUP>TM</SUP> '' 
programs. These are all examples of effective and proactive food safety 
enhancements that were direct results of Tyson's commitment to risk-
assessment, innovation and continuous improvement.
    Niche-Buster<SUP>TM</SUP> targets microorganisms that could be 
harbored in niche environments, e.g. seams and cracks of the equipment 
or facilities. The program is employed in every Tyson beef slaughter 
and processing plant. A constant search and destroy effort is 
undertaken by our plant quality and sanitation experts to eliminate 
these harborage areas for bacteria. Originally for use in preventing 
Listeria contamination in ready-to-eat plants, Niche-
Buster<SUP>TM</SUP> has proven to be extremely helpful in preventing E. 
coli O157:H7 cross-contamination in Tyson beef plants.
    The ``Carcass Thermal Pasteurization'' technology blasts every beef 
carcass with sufficient heat to raise the surface temperature above 
160F, which is an immediate kill point for pathogens on the carcass 
surface. It is highly effective against all pathogens, and is a 
validated Critical Control Point (CCP) in all of our beef slaughter 
plants' HACCP plans.
    ``Tyson Total N60<SUP>TM</SUP> '' is a nickname for a Tyson-
developed, extremely comprehensive and sensitive testing system to 
prevent E. coli O157:H7 from contaminating ground beef. Tyson tests all 
raw beef components destined for ground beef production. The Tyson 
Total N60<SUP>TM</SUP> program provides a 95 percent or greater 
assurance of finding and eliminating E. coli O157:H7 from beef which is 
used for ground product. Tyson Total N60<SUP>TM</SUP> is among our most 
powerful food safety tools, as it augments the other antimicrobial 
programs. It is so powerful that it has been adopted across the 
industry and recognized by the USDA. Tyson believes that programs such 
as Tyson Total N60<SUP>TM</SUP> that find and remove O157:H7 containing 
meat from the ground beef supply chain, have contributed significantly 
to the significant decline in incidence the U.S. over the last several 
years.
    Tyson Foods' dedication to safe, quality food is buttressed by the 
programs and controls we have to deliver on our promise of providing 
safe foods. From our laboratories, to our product and process 
monitoring programs, to our HACCP verification processes, we are 
focused on ``feeding our families, the nation, and the world with 
trusted food products,'' a phrase you will find in our company's core 
values.
Our Food Safety and Quality Assurance Team
    Tyson Foods Food Safety and Quality Assurance (FSQA) Team consists 
of approximately 2,500 professionals. This team works side by side with 
production to ensure the safety and quality of every product. FSQA Team 
Members execute and manage all phases of the Company's food safety and 
quality assurance programs including:

  <bullet> Food safety and sanitation,

  <bullet> Policy adherence and regulatory compliance,

  <bullet> Laboratory services and statistics support,

  <bullet> Product and process performance,

  <bullet> Good manufacturing practices, and

  <bullet> Food safety and quality training.

Our organizational structure is built to enhance independent, nonbiased 
decisions for FSQA managers. All FSQA team members, including myself, 
report parallel to Operating groups.

    The safety of our products is also closely monitored by a Food 
Safety Team located at each facility. These multi departmental teams 
systematically evaluate key aspects of our production processes to 
prevent potential food safety concerns. The Food Safety Team will then 
work with their facilities to develop, implement, and monitor controls 
and procedures to drive continuous improvement.
    Training is a key success factor for continuous improvement. Tyson 
Foods' Team Members are provided on-going food safety and quality 
assurance training. For example, in partnership with the University of 
Arkansas, Tyson Foods helped developed the Food Safety Training and 
Education Initiative.
    Tyson Foods also partners with Texas A&M University to offer one of 
the few industry-sponsored training programs approved by the 
International HACCP Alliance.
Food Safety Laboratories
    The Tyson Food Safety and Laboratory Services Network are 
recognized throughout the industry as research leaders in serological 
testing, food chemistry, microbiological testing, food safety research, 
and environmental water testing. Our accreditations include numerous 
Federal Government agencies.

  <bullet> USDA-FSIS Food Chemistry,

  <bullet> USDA-FSIS Pesticide Analysis,

  <bullet> USDA/AMS Russian Export/Chemistry and Microbiological 
        Testing,

  <bullet> National Poultry Improvement Plan (NPIP) for Testing Avian 
        Influenza and Mycoplasma synoviae and Mycoplasma gallisepticum, 
        and

  <bullet> USDA-APHIS for Salmonella Analysis.

    Tyson Food Safety and Laboratory Services Network includes 17 
laboratories across the country. This includes a 25,000 square foot, 
state-of-the-art food testing and research laboratory at Tyson Foods' 
World Headquarters in Arkansas. This laboratory is dual certified under 
the International Organization for Standardization (ISO) quality 
management system standard ISO 9001:2000 and the ISO/IEC 17025 standard 
for the competence of testing and calibration laboratories. In 
addition, seven other Tyson Foods regional and corporate laboratories 
are certified under the same ISO/IEC 17025 standard.
    Tyson Foods also has 61 plant-based Quality Assurance laboratories. 
All tests conducted in these laboratories are thoroughly detailed in 
the corporate Laboratory Manual. A 3\1/2\ day microbiology and 
chemistry course is offered regularly for management personnel and 
laboratory technicians located in our processing and rendering plants. 
Audits of these laboratories underline Tyson Foods' continuing 
commitment to quality.
Food Defense
    Tyson Foods takes extraordinary measures for protection against 
deliberate acts of food product sabotage. We require each facility to 
take appropriate measures to ensure the security and protection of the 
food products they produce. Specifically, we require all facilities and 
co-packers to conduct vulnerability assessments. From this assessment, 
each facility then develops and maintains a facility food defense plan. 
This plan identifies the measures the facility will employ to avoid 
risk involving deliberate product tampering. Tyson Foods also requires 
each facility develop a response strategy in the event a threat to the 
food products they produce is made or detected.
Internal and External Food Safety Audits and Inspections
    Tyson Foods' facilities receive routine internal quality assurance 
and food safety assessments. These assessments are conducted by quality 
assurance managers. They focus on:

  <bullet> Critical food safety elements,

  <bullet> Sanitation performance,

  <bullet> Company policy adherence, and

  <bullet> Regulatory compliance.

    Each facility is also audited in accordance with the Tyson Foods 
Comprehensive Food Safety Audit Program. These internal audits are 
composed of audit team members that are independent of the facility 
being audited.
    Tyson Foods' facilities also receive periodic third party audits of 
their food safety systems and good manufacturing practices (GMP's). 
These reviews, conducted by or on behalf of our customers, are 
performed by nationally recognized independent auditing firms.
    These independent audits serve as additional verification that each 
facility is producing safe and quality food products. They also verify 
our compliance with applicable regulations, company policies, and 
customer specification requirements.
    Tyson Foods' commitment to food safety is premised on the basis 
that food safety is not a point of competition between manufacturers. 
We openly share food safety research and technologies with our peers 
and colleagues. With the support of our Laboratory Services Group, 
Tyson Foods' partners with government, academia, trade associations, 
and other industry members to sponsor food safety research. We have 
made substantial contributions to research covering E. coli O157:H7, 
Salmonella, Avian Influenza, Bovine Spongiform Encephalopathy (BSE), 
Listeria monocytogenes, Campylobacter, and other public health issues 
and initiatives aimed at improving food safety.
Conclusion
    We have made tremendous progress in learning how to improve meat 
safety over the past decade. But we understand that we can't rest--the 
world continues to change, including the microbial world. Tyson, in 
addition to our colleagues at other food companies, are doing 
everything we can to produce safe, quality products every day. Thank 
you for your time and attention.

    The Chairman. Thank you, Dr. Roop, for that testimony. And 
last on the panel is Dr. Joseph Sebranek, Professor with the 
Department of Animal Science at Iowa State University in Ames, 
Iowa. Welcome, Doctor, we are looking forward to your 
testimony.

 STATEMENT OF JOSEPH G. SEBRANEK, Ph.D., UNIVERSITY PROFESSOR, 
                DEPARTMENT OF ANIMAL SCIENCE AND
  DEPARTMENT OF FOOD SCIENCE, IOWA STATE UNIVERSITY, AMES, IA

    Dr. Sebranek. Thank you, Mr. Chairman, Members of the 
Committee.
    One of my research areas at Iowa State University has been 
the use of low-oxygen packaging systems including carbon 
monoxide for fresh meat packaging. The technology has been 
criticized as deceptive and hazardous. This is an issue I want 
to address today because in my opinion, there is no scientific 
basis for these claims.
    When considering fresh meat packaging technology it is 
important to understand the options that are available for 
packaging fresh meat and the advantages and disadvantages of 
each. For example, vacuum packaging, which is one packaging 
option, is universally practiced for wholesale meat cuts 
because it results in several-fold longer refrigerated storage 
life without spoilage. It is important to note that vacuum 
packaging is effective because it eliminates oxygen. 
Eliminating oxygen prevents growth of primary spoilage bacteria 
and prevents oxidative off flavors from developing at the same 
time. Unfortunately, vacuum packaging is not a suitable option 
for retail because the color is not attractive to consumers. 
However, the advantage of eliminating oxygen from contact with 
fresh meat in terms of vastly improved storage stability is an 
important point to remember.
    The second option for packaging fresh meat is aerobic 
packaging. This approach uses a permeable film to allow oxygen 
from the air to contact the product surface. Oxygen is bound by 
the meat pigment to form the bright, cherry-red color. The 
color is clearly preferred by consumers but, unfortunately, the 
shelf life of fresh meat in aerobic packages is relatively 
short.
    The third option for fresh meat packaging is modified 
atmospheres where air is replaced with a mixture of gases that 
provides for better control of product properties. One approach 
to use modified atmosphere packaging is a high-oxygen 
concentration, as much as 80 percent. This results in a red 
color with longer color stability but keep in mind that contact 
with oxygen allows aerobic bacterial growth and development of 
potentially rancid flavors.
    A second approach to modified atmosphere packaging is to 
use 0.4 of 1 percent carbon monoxide with carbon dioxide and 
nitrogen. This approach produces attractive red meat color 
because carbon monoxide binds to the meat pigment in the same 
way as oxygen, only with a stronger bond and produces a cherry 
red color that is visually identical to that produced by 
oxygen. The most immediately obvious advantage to this approach 
is a stable red color that can last for 28 to 35 days, 
depending on the cut and refrigerated storage. This has been 
the basis for much of the criticism of this packaging concept 
with claims that this is deceptive and hazardous. But science 
does not support these claims and numerous scientists have 
expressed concerns over unwarranted criticisms of this 
technology.
    Carbon monoxide is colorless and affects meat color in the 
same way as oxygen, that is by combining with the meat pigment. 
The color is derived from the pigment in both cases, not an 
external coloring agent.
    It has been suggested that that color will last too long 
resulting in a spoiled product that still looks good. However, 
remember that eliminating oxygen slows spoilage a great deal. 
Further, spoilage, when it does occur, manifests itself in 
several other ways, one of which is odor. Perhaps more 
importantly, very recent research by Dr. Michael Doyle at the 
University of Georgia has shown that modified atmosphere 
packaging with carbon monoxide repressed the growth of 
pathogenic E. coli on ground beef. Dr. Doyle concluded, 
``refrigerated or mildly temperature-abused modified atmosphere 
packaging with carbon monoxide for ground beef has better 
quality and microbial safety characteristics than over-wrapped 
beef under similar conditions.''
    Recent studies have also shown that meat cuts in high 
oxygen atmospheres were also less tender than those packaged 
without oxygen.
    Consequently, the use of carbon monoxide packaging and 
modified atmospheres for fresh meat offers numerous advantages 
including improved product appearances, potentially better 
flavor, greater tenderness and suppression of bacterial growth. 
The use of carbon monoxide provides all the advantages of a 
vacuum package for maximizing storage stability with the 
attractiveness of an aerobic package for retail display. This 
is neither deceptive nor hazardous.
    Seems to me it would have been most appropriate to let the 
marketplace decide the ultimate success or failure of this 
technology.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Sebranek follows:]

 Prepared Statement of Joseph G. Sebranek, Ph.D., University Professor,
Department of Animal Science and Department of Food Science, Iowa State 
                          University, Ames, IA
    Mr. Chairman and Members of the Committee:

    Thank you for the opportunity to visit with you today about some of 
the current issues associated with technologies in the meat industry. 
My name is Joe Sebranek. I am a University Professor in the Department 
of Animal Science and the Department of Food Science at Iowa State 
University where I have been responsible for research and teaching in 
Meat Science for the past 32 years. I received a joint Ph.D. in Meat 
and Animal Science from the University of Wisconsin--Madison prior to 
joining the faculty at Iowa State. I have conducted research and 
published several peer-reviewed scientific reports on meat packaging 
technology which I understand to be the focus of this hearing. In 
particular, I have researched the use of carbon monoxide in fresh meat 
packaging which has been criticized as a ``deceptive and hazardous'' 
technology. This is an issue that I would like to address today 
because, in my opinion, there is no scientific basis for these claims.
    When considering fresh meat packaging technology, it is important 
to understand the options available for packaging of fresh 
(refrigerated, unfrozen) meat and advantages and limitations of each. 
Meat is a highly perishable commodity and packaging plays a very 
critical role in protecting meat products from contamination and 
spoilage during distribution to consumers. For example, vacuum 
packaging of wholesale, primal cuts of meat, which is one packaging 
option, is universally practiced for wholesale packaging because it 
results in a several-fold longer refrigerated storage time without 
spoilage in comparison with products exposed to air. It is important to 
note that vacuum packaging, which consists of placing meat into a gas-
impermeable bag or container and evacuating all of the air before 
sealing the package, is effective because it eliminates oxygen from 
contact with the meat. Eliminating oxygen prevents growth of aerobic 
bacteria which are the primary spoilage bacteria of fresh meat. 
Eliminating oxygen also prevents development of oxidative rancidity and 
associated off-flavors at the same time. Unfortunately, vacuum 
packaging is not a suitable option for retailing fresh meat because in 
vacuum, meat color reverts to a dark purple-red which is not attractive 
to consumers. There have been several attempts by the meat industry in 
the past to offer fresh meat to consumers in vacuum packages but these 
attempts have been unsuccessful because of the color issue. However, 
the advantage of eliminating oxygen from contact with fresh meat in 
terms of greatly improved storage stability is an important point to 
remember.
    The second option for packaging fresh meat is aerobic packaging. 
This approach uses a permeable, clear film which allows oxygen from the 
air to permeate the film and contact the product surface. The oxygen is 
bound by the meat pigment myoglobin and in doing so, forms oxymyoglobin 
which has a bright, cherry-red color. This is the color clearly 
preferred by consumers as documented by many, many studies on meat 
color. Unfortunately, oxygen contact allows rapidly-growing aerobic 
spoilage bacteria to proliferate and also initiates chemical oxidation 
reactions that eventually result in rancid flavors. Consequently, the 
``keepability'' or shelf life of fresh meat in an aerobic package is 
relatively short, consisting of a few days to a week or two at most, 
depending on the meat cut and how it has been handled.
    The third option for fresh meat packaging that has developed more 
recently is use of a impermeable film similar to a vacuum package but 
includes first evacuating the air from the package and replacing the 
air with a specified mixture of gases that provides for better control 
of product properties. This is modified atmosphere packaging or MAP. 
The air in the atmosphere we live in is 75% nitrogen, 21% oxygen, and 
less than 1% carbon dioxide with minute amounts of a few other gases, 
thus, changing the gas composition in a package from that of air is 
considered MAP. For fresh meat, two forms of MAP have been utilized. 
One approach is to use an oxygen concentration greater than air, as 
much as 80%, in MAP. This results in red color that may last as long as 
10 to 14 days compared to about 5 days in a conventional oxygen-
permeable package. Keep in mind that contact with oxygen allows many of 
the same effects as conventional aerobic packaging; that is, aerobic 
bacterial growth and development of rancid flavors over time. It has 
also been observed that high oxygen exposure can result in what is 
called ``premature browning'' when the meat is cooked. This means that 
meat turns brown at cooking temperatures lower than what is typical. 
Some scientists have expressed concern that consumers may not 
thoroughly cook products, particularly ground beef, to achieve 
bacterial safety in this case because the cooked color will look 
``well-done'' when that is really not the case.
    This brings us to the use of carbon monoxide in MAP. This is an 
alternative MAP system that has been approved by the regulatory 
agencies and has been available for a little more than 4 years. This 
system uses 0.4% carbon monoxide (CO), 30% carbon dioxide 
(CO<INF>2</INF>) and 69.6% nitrogen (N<INF>2</INF>). This approach 
produces very attractive meat color because CO binds to meat pigment in 
the same way as oxygen, only with a stronger bond, and produces a 
cherry red color that is visually identical to that of oxymyoglobin. 
The most immediately obvious advantage of this approach is a stable red 
color that can last for 28 to 35 days in refrigerated storage. This has 
been the basis for much of the criticism of this packaging concept, 
with claims that this is ``deceptive and hazardous''. There is simply 
no scientific basis for these claims. Carbon monoxide is colorless and 
affects meat color the same way as oxygen, that is, by combining with 
myoglobin. The color is derived from the meat pigment in both cases, 
not an external coloring agent.
    It has been suggested that the color will last too long, resulting 
in a spoiled product that still looks good. I would like to point out 
that spoilage also manifests itself in other ways, the most obvious of 
which is odor. Thus, there are other very obvious warning signs of 
spoilage. Further, the MAP with CO packages include ``use by'' and/or 
``freeze by'' dates to give consumers guidelines on the time by which 
the product should be used. It is also important to remember that 
elimination of oxygen prevents aerobic bacterial growth and 
dramatically slows spoilage compared with aerobic packaging. Perhaps 
more importantly, very recent research by Dr. Michael Doyle at the 
University of Georgia has shown that MAP with CO repressed the growth 
of pathogenic E. coli O157:H7 on ground beef compared to conventional 
aerobic packaging, thus there is an impact on this pathogen as well. 
Dr. Doyle concluded that ``. . . refrigerated or mildly temperature-
abused MAP-CO ground beef has better quality and microbial safety 
characteristics than over-wrapped beef stored under similar 
conditions.'' Recent studies have also shown that meat cuts in high 
oxygen atmospheres were less tender than those packaged without oxygen 
probably due to the activity proteolytic, tenderizing enzymes that are 
known to be inhibited by oxidative conditions.
    A final issue raised by some critics of MAP-CO system is the human 
exposure to CO, a recognized environmental hazard. However, at 0.4% in 
a package, it would require over 200 packages to exceed what the 
Environmental Protection Agency considers a limit for exposure to CO. 
This issue has been addressed many times and it is widely accepted that 
CO exposure from meat packaging is negligible.
    Consequently, the use of MAP-CO for fresh meat offers numerous 
significant advantages including improved product appearance, better 
flavor, greater tenderness, and suppression of bacterial growth. The 
use of CO provides all the advantages of a vacuum package for storage 
stability with the attractiveness of an aerobic package for retail 
display. To quote one of my colleagues in Meat Science, Dr. Daren 
Cornforth of Utah State University, ``What's not to like about that?''
    There is one other point to be made. Carbon monoxide packaging can 
be combined with other antimicrobial treatments to dramatically improve 
fresh meat shelf life and safety while retaining attractive color. A 
good example is irradiation, which when applied to ground beef to 
reduce or eliminate bacteria, typically results in a color change to a 
purple-red resembling vacuum packaged meat. However, if ground beef is 
irradiated in MAP-CO, cherry red color is retained while bacteria are 
reduced to very low numbers. Commercial ground beef processed with this 
combination has been advertised with a 38 day refrigerated shelf life 
which is a dramatic improvement over the typical 5 days. I fully 
recognize that irradiation is itself a controversial process. However, 
this provides a good example, in my opinion, of the often-unrecognized 
potential to combine MAP-CO with other technologies to maximize food 
quality and safety. Packaging with CO should continue to be available 
as an option to allow for development of new and innovative 
combinations of packaging with other new technologies to maximize 
quality and safety of fresh meat.
    Finally, the MAP-CO technology has now been used commercially for 
almost 5 years and there have been no complaints that I am aware of 
from consumers about unexpected or unusual spoilage. This technology is 
establishing a track record that has been free of problems and has not 
been an issue with consumers. It seems to me that it is most 
appropriate to let the marketplace decide the ultimate success or 
failure of this technology.

    The Chairman. Thank you, Dr. Sebranek. We appreciate the 
testimony. We appreciate all of the members of this panel being 
with us. Unfortunately, the way these hearings go and these 
time limits, we don't always get the time we need to figure out 
what is going on here. Now, Dr. Minerich, you have some 
packaging here. I had an hour to be showing all of this and ask 
questions when I had this, which we don't have here today. But 
have you got somebody with you that can hand these things 
around and just explain the different packaging and what the 
issues are with them?
    Dr. Minerich. Yes, I would be happy to do that. Thank you. 
Just quickly, and as my slide showed, modified atmosphere 
packaging has been used on a number of different packaging 
systems throughout the food industry. And I think if you 
recall, the last time you have walked through the grocery 
store, you see these packages all the time. Consumers are very, 
very familiar with modified atmosphere packaging.
    As you heard from several of the other guests speaking 
today, you heard the conversation talking about vacuum-packaged 
meat. This is a good example of a vacuum-packaged primal. This 
packaged meat is dated at the production facility with the date 
it was put in the bag. And that could be 10, 20, 30, up to 60 
days old, kept refrigerated and be totally wholesome. And when 
you open that package and then cut it and package it in the 
tray in the back room of the store, it would bloom bright red 
and still have 3 to 5 days of shelf life on the retail shelf. 
That is what Dr. Eilert mentioned. That is the ideal packaging 
system and that delivers the longest shelf life in the most 
wholesome environment.
    What low-oxygen packaging does is the same. It removes the 
oxygen and yet with the 99.6 percent nitrogen or carbon dioxide 
gas and 0.4 percent carbon monoxide gives you all the benefits 
of vacuum packaging, as Dr. Sebranek mentioned, but also with 
the color, the visual color, we are looking for.
    When you compare that to the alternate package, high-
oxygen, we were in this package back in 1991. And for the 
reasons you have heard by those people testifying, the 
experience that the consumers had and the eating quality of 
that product lead us to help develop alternate packaging 
technologies.
    As you see by all the packages in front of you, all of 
these technologies are advancements built on the benefits of 
the previous packaging system and on some of the challenges and 
downfalls. You talk about the 9/11 Commission's interest in 
food safety and protecting package integrity. You look at 
eliminating cross-contamination issues that happen either in 
the back room or as consumers are handling the products and I 
think we can all think back to the times we have handled food 
products at the checkout counter and some of these juices have 
slipped over the line, maybe from the person in front of you, 
maybe as you have lifted this piece of meat up, your lettuce 
was in contact with that and now you have had a cross-
contamination issue at this point.
    So that is what these intact packages offer. One other 
thing that has been mentioned as well is the code dating. In 
the GRAS approval status for the low-oxygen packaging system, 
we mandated that code dating be a part of that GRAS standard 
and it is very prominently displayed and you will see it on the 
packages going around. And this is nothing new. We talked about 
all the packages that are code dated including our friends at 
Tyson with chicken. Code dating in the meat industry is nothing 
new and consumers wholly understand that they use this chicken 
by November 3 or they do not buy it. And the store, the 
retailer, will stop selling it. So code dating is a very 
important attribute.
    Now, as you look at different systems, Hormel has been on 
the forefront of helping develop many of these packaging 
systems. And one of the alternatives, low-oxygen systems, is 
what we call the potato chip bag. We developed this back in the 
late 90's. And this was the pre-cursor to the low-oxygen, what 
we call, tray pack bag. And the reason we advanced technology 
from this to this is because sustainability is an important 
issue to Hormel Foods. This is what gets displayed to the 
consumer, it will look just like this package. This gets thrown 
away. It is film. There is an oxygen-absorbing scavenger in 
here. And when we ship this in a truck, we can only ship half 
as much as what we can ship here. So knowing that means twice 
as many trucks on the road, then here. So when you talk about 
sustainability, this was a challenge to Hormel Foods on how do 
we take this technology to the next step. The other thing is 
this package is not leak-proof, so we did not achieve what the 
consumer wanted, a leak-proof package. This low-ox packaging 
system does achieve that. And this really is the epitome of 
what we are trying to accomplish with these cuts of meat that 
do rely on visual evidence of quality and intactness of the 
package and leak-proof and code dating.
    The other thing we do to this package, we have our brand 
name on it, we have the code date prominently displayed, we 
also have the code date on the back and we have an 800 number 
displayed, so that we encourage consumer interaction concerning 
our products to see if there is some part of this packaging 
attribute that we are missing. And to date, as I stated in my 
presentation, this was one of the best products we have ever 
introduced in our 116 year history as far as having consumer 
compliments and a very, very low consumer complaint ratio.
    The Chairman. This package here, this is high-oxygen?
    Dr. Minerich. Yes, it is.
    The Chairman. Does the oxygen go through this membrane or 
not?
    Dr. Minerich. No, Mr. Chairman, the oxygen stays. When we 
talk about modified atmosphere, the air we are breathing is 
about 80 percent nitrogen and 20 percent oxygen. That package 
is about 80 percent oxygen and 20 percent carbon dioxide.
    The Chairman. Why doesn't this package have a date on it?
    Dr. Minerich. It probably is on the label. That was 
probably dated on the front label where the price tag is.
    The Chairman. I don't see it but----
    Dr. Minerich. Okay. Typically, they would label that at 
retail and that is another one of the challenges. That is why 
we put mandatory dating as part of our GRAS notice on our 
packaging system.
    The Chairman. But the difference between this and the low-
oxygen is that the meat stays fresher with the low-oxygen.
    Dr. Minerich. The meat in the high-oxygen package that you 
have will have a shelf life based on color of about 10 to 14 
days. Now, when you open that package and you taste it, you 
cook it, it will have a rancid or an off-flavor to it. It is 
not a good eating experience. And then also recall, because of 
that high-oxygen technology, the meat will turn brown at a very 
low temperature. So when you cook it, if you wanted to have a 
medium rare or a rare steak, you are going to have a hard time 
achieving that because the meat will turn brown faster. And one 
of our concerns from a food safety perspective with ground 
beef, we are asking our consumers to cook ground beef to a 
minimum 165 degrees Fahrenheit. If you cook by color like many 
consumers do, that ground beef will be brown far below that 
temperature of 160 degrees.
    The Chairman. And how much of the ground beef is packaged 
like this?
    Dr. Minerich. I don't have that information. I don't know.
    The Chairman. But that was one of the things I didn't 
understand until I had this presentation, you wouldn't be able 
to tell if it is still rare.
    Dr. Minerich. Correct.
    The Chairman. It is brown.
    Dr. Minerich. Correct.
    The Chairman. I am not much of a cook but when I cook 
something I kind of break it open to see if it is cooked or not 
and with this you sometimes wouldn't be able to tell.
    Dr. Minerich. No. No, sir.
    The Chairman. And why don't people get concerned about 
that?
    Dr. Minerich. That is a good question. Like I said, we were 
in that technology in 1991 and it took us a few years to work 
our way out of it. It was a great advancement in technology but 
there were better technologies that have come over the years.
    The Chairman. And on the low-oxygen, you actually increased 
the size of the freeze-by date, didn't you? I mean, it is a 
pretty good size on the front of the package and the back.
    Dr. Minerich. Yes, we did. We looked at Tyson and some 
other leaders in the industry that have used a code date, a 
very prominent code date right on the front. As I said, it is 
also code dated on the back but that is put on at our 
manufacturing facility. So that date is fixed and nobody can 
change that date. When it reaches the end of that date, the 
retailer disposes of that product.
    The Chairman. All right. I have gone over my time I think. 
You guys were generous. I have some more questions but I will 
save those. The gentleman from Oklahoma, Mr. Lucas.
    Mr. Lucas. Thank you, Mr. Chairman. And, gentlemen, let us 
touch on the issue about consumer awareness, the dating on the 
packages, and the effect of trying to maintain a wholesome 
product out there with the consumers.
    We saw recently where a company which had a difficulty with 
health issues, so to speak, and the ground beef industry went 
away. So the consumers tend to be very punishing in their 
decisions. If you make a mistake, they tend to respond with 
great intensity.
    Discuss with us a little bit, and I know you all are from 
the scientific perspective on this, about the issues involved 
in that concern of consumers being able to make an informed 
decision by looking at your product. Do you think the way the 
packaging is done, do you think that the consumers will be able 
to make the right decisions on these issues? Just anyone on the 
panel care to touch on that?
    Dr. Eilert. Congressman, at Cargill we were very focused 
and we paid particularly close attention to, in fact, we have 
been affected by recent recalls. We take this issue very 
seriously. And we do a risk assessment. As we develop new 
technologies, we assess the risk to make sure that we are not 
increasing additional risk. As we think about the fresh meat 
packaging system we think about any potential risk that may 
occur. One of the things that we are very comfortable with as 
we have studied this is that because we are able to control the 
life of that product, we are able to control the supply chain 
of that product, in a case-ready packaging format. We think we 
have greater ability to maintain the safety of that product 
throughout the chain. And so we do take these issues very 
seriously and, at the same time, we are very confident that 
because we are able to control the supply chain and the 
packaging of the product and minimize the opportunities for 
cross-contamination, case-ready packaging and modified 
atmosphere packaging is but another step to help maintain the 
safety of the product that has been engineered into it at the 
harvest-level facility.
    I hope I have answered your question.
    Dr. Minerich. If I could add to that please?
    Mr. Lucas. Please.
    Dr. Minerich. There have been three independent studies 
that we are aware of that really support the additional safety 
of this low-ox and low amount of carbon monoxide packaging 
compared to the other packaging technologies. Dr. Michael 
Doyle, who is the Director for the Center of Food Safety at the 
University of Georgia, independently reports that this 
packaging technology retards the growth of E. coli O157:H7 in 
ground beef, even under temperature-abusive conditions. And he 
calls MAP-sealed treated meat a revolutionary technology 
providing greater protection against food-borne pathogens. Dr. 
Mindy Brashears at Texas Tech also supports that with her work. 
Excuse me, Mindy. And also an independent study by the European 
Commission, Scientific Committee on Food, back in 2001 studied 
this packaging format and concluded that there is no health 
concern associated with 0.3 to 0.5 carbon monoxide gas and a 
carbon dioxide and nitrogen modified atmosphere packaging. They 
also documented that this packaging system inhibits the growth 
of pathogens such as Listeria monocytogenes, Yersinia 
enterocolitica and E. coli O157:H7. Those are very important 
food safety studies that help support this type of technology 
over and above the other packaging options. Which is why you 
see more than a dozen of the food safety experts around the 
world endorsing this technology and really have not endorsed 
the high-oxygen technology. Thank you, Mr. Chairman.
    Mr. Lucas. Anyone else?
    Dr. Sebranek. Well, I might add that one advantage of the 
carbon monoxide technology is that it allows incorporation of 
additional microbial control agents. For example, the elevated 
carbon dioxide, that is an anti-microbial treatment that can 
extend shelf life and control pathogens. The inclusion of 
carbon monoxide allows a higher than usual level of carbon 
dioxide to improve the stability and shelf life of the product. 
It, potentially, would also allow incorporation of other 
technologies. For example, there have been several 
demonstrations that combining carbon monoxide packaging with 
irradiation is a highly effective combination because 
irradiation, even though it is a very controversial process in 
itself, is completely effective against bacteria. So by using 
packaging technology for color preservation, irradiation for 
microbial control, you can vastly improve shelf life, even over 
those that we have been talking about. So my point is not to 
promote irradiation but to promote the option of combining this 
packaging technology with other technologies that might have a 
particularly good impact.
    Mr. Lucas. Very good point, doctor. Thank you, Mr. 
Chairman.
    The Chairman. I thank the gentleman. The gentleman from 
Minnesota, Mr. Walz.
    Mr. Walz. Well, I thank you, Mr. Chairman, and I thank all 
of our panelists for being here today and listening to your 
testimony. And I would associate myself with the gentleman from 
Oklahoma talking about how the market will be very punishing, 
especially the three sitting here, to your industries if you 
are not providing food safety. And this issue comes up, I guess 
I just have a couple of questions because it seems and, in full 
disclosure here, Dr. Minerich is a constituent of mine and 
Hormel is located in my district and Cargill is a Minnesota 
company. With that being the case though, I approach this more 
as a consumer as I look at this. The issue and as you have 
discussed on this is not so much a food safety issue but as the 
way the food looks, the consumers are looking at the sell-by 
dates and all of that. Who is opposed to the low-oxygen 
technology? Where is this coming up as an issue if we have the 
scientists and many of the studies reporting that this is a 
safe technology, it is not doing anything. We still have the 
sell-by dates and you have indicated, Dr. Minerich, there have 
been no cases of food-borne illness through this technology. 
Then who is talking about this or is this a solution looking 
for a problem?
    Dr. Minerich. Thank you, Congressman Walz. I am not going 
to comment on the last question but on the first question, this 
whole issue arose from a spice manufacturer, who sells spices 
under control of several patents that help the high-oxygen 
technology stabilize that color longer. And that competing 
technology against ours now is at risk. And that all generated 
about 2 years ago. We had been in the market 2 years by that 
time already, so total market time is about 4 years for us. And 
the interest, it is almost unfortunate that they are alarming 
consumers with the food safety issue when leading scientists 
endorse this technology. There are some entities protecting 
their constituents along that line instead of allowing the 
marketplace to settle the difference.
    Mr. Walz. This spice manufacturer is the one who did not 
show up today, is that correct?
    Dr. Eilert. That is correct, being invited twice.
    Mr. Walz. What does their product do as a food additive 
that differs from low-oxygen? Their product keeps the product 
fresher or just keeps the color?
    Dr. Minerich. It keeps the color.
    Mr. Walz. So there is no difference?
    Dr. Minerich. They use oxygen to stabilize the myoglobin 
pigment in a high-ox atmosphere but their ingredient helps 
stabilize that color longer, according to their patents. 
Whereas, when you go to a low-oxygen format, you don't need 
that ingredient, so that ingredient is no longer necessary in 
these products. The color is stabilized by the small amount of 
carbon monoxide instead. So they are just competing 
technologies. When you said is this a solution trying to solve 
a problem that doesn't exist, as I said consumers are investing 
a lot of money into these meat products.
    Mr. Walz. Would I be naive to think on this, I guess, from 
Tyson, Cargill and Hormel's perspective on this, if this 
different technology, the spice additive or whatever, if it 
were cheaper and did the same thing, you would probably switch 
to that, is that correct, if it would save money? I am just 
checking on this as you go.
    Dr. Minerich. No, we would not do it to save money.
    Mr. Walz. Okay.
    Dr. Minerich. Like I said, we were in this in 1991 and the 
eating experience was not a happy thing for our consumers.
    Mr. Walz. So you have been through this a long time of 
seeing what is best for the consumer, what is best for bottom 
line in terms of sales and what is going to, as you said, keep 
the food safe and not be an issue.
    Dr. Minerich. Correct. And these food safety attributes 
that this package offers over high-oxygen provide a much better 
packaging system for the consumer. And from food safety, from 
cross-contamination, less hands touching the meat.
    Mr. Walz. This is just in your opinion, this is a better 
technology.
    Dr. Minerich. Yes, sir.
    Mr. Walz. That is why you are using it.
    Dr. Eilert. Congressman, we also--in Cargill, we offer a 
lot of different packaging solutions to our customers and the 
choice of which is dependent upon economics, consumer 
preference, supply chain needs. There are retailers in the 
United States that effectively can use a shorter shelf life 
product like these high-oxygen packaging systems can provide. 
They can manage the supply chain and it is an effective 
solution for them. There are some retailers without as 
sophisticated a distribution system that this is not as good of 
a solution as a shelf life that is more near the natural shelf 
life potential of the products. And that is one of the key 
things that I want to make sure that the Committee understands, 
is that we are not talking about creating shelf life out of 
thin air. We are talking about protecting the natural shelf 
life of this product and using that protection to benefit our 
customers and the consumers. Will we still sell meat if we have 
only a high-oxygen format? I suppose we will but it won't be as 
high a quality as what we can achieve with this advancement and 
this technology.
    Mr. Walz. Okay. Well, I thank you and I yield back, Mr. 
Chairman.
    The Chairman. I thank the gentleman. The gentleman from 
Kansas, could I follow up just for a second?
    Mr. Moran. Certainly, Mr. Chairman.
    The Chairman. This company, do they have a patent on this 
other process?
    Dr. Eilert. Yes, they do.
    The Chairman. Do they then charge people and make money off 
that patent, I assume?
    Dr. Eilert. The specifics, we can't comment to their exact 
commercialization.
    The Chairman. But there is some kind of charge for that 
patent.
    Dr. Eilert. Certainly, certainly. And the speculation might 
be that the license might be inherent with the use of the 
technology.
    The Chairman. Is that the same situation with this low-
oxygen? Is there some patent on that?
    Dr. Eilert. Currently today there are no patents. There are 
patents in this area but there are no patents granted on the 
packaging technologies today.
    The Chairman. So there is a difference there then?
    Dr. Eilert. Yes, there is.
    The Chairman. Okay. Thank you. The gentleman from Kansas, 
Mr. Moran.
    Mr. Moran. Mr. Chairman, thank you very much. The phrase 
``shelf life'' has been used throughout your testimony and my 
first question is, what is the definition of ``shelf life''? Is 
it agreed upon within the industry? First answer those 
questions and then I will see, I may have a third.
    Dr. Eilert. Congressman, ``shelf life'' is in essence that 
period of time in which product is maintained in an acceptable 
quality level. It is the period of time in which spoilage is 
not evidenced at a noticeable level. Is there a standard shelf 
life for every single product on this table and the answer is 
no.
    Mr. Moran. Would each of the companies represented here 
today reach a different shelf life?
    Dr. Eilert. They could very well. Now, what tends to happen 
is that with companies like represented here and some of our 
colleagues in the rest of the industry, there is a certain 
level. I talk a lot about shelf life potential. And when we 
take a piece of fresh beef, if we process that in a hygienic 
fashion and we store and distribute those products and managing 
the cold chain as best we can, then most of the companies are 
going to achieve the shelf life potential or very near the 
shelf life potential of the products. And so it is going to 
vary somewhat processor to processor. At the end of the day, 
any company, the ones represented here at the table, as well as 
our colleagues in the industry, any company that puts their 
name, their brand, their inspection legend on those products, 
is obligated to protect and maintain that any shelf life that 
they put on those products is going to deliver for the 
consumers.
    Mr. Moran. Is shelf life related to food safety or related 
to customer satisfaction?
    Dr. Eilert. Shelf life is related to customer satisfaction, 
it is not related to food safety.
    Mr. Moran. So who makes the determination that after a 
certain date the product has been on the shelf it is no longer 
safe for consumption by the consumer?
    Dr. Eilert. Those are generally made by the--well, first--
--
    Mr. Moran. Safe?
    Dr. Eilert. Okay. Again, from a safety standpoint, shelf 
life, we want to draw a distinction between safety and shelf 
life. When we talk about raw meat products today the primary 
control of the pathogens that can occur on those products takes 
place at the harvest facility. Those pathogens, and in the case 
of beef, let us talk specifically on beef, the E. coli O157 
organism is on the exterior of the animal, as well as in its 
digestive tract. The meat itself is sterile. It is perfectly 
safe for consumption. So the job of Tyson, the job of Cargill, 
the job of Hormel, is first and foremost to prevent the 
contamination from the outside of the carcass or from the 
interior of the animal to the meat product. That is the first 
line of defense that takes place. Now, everything else that 
takes place beyond the harvest process is making sure that 
temperatures are maintained, cross-contamination is minimized. 
And so when we talk about that, the occurrence of the pathogen 
at the harvest level has very little to do with the ultimate 
shelf life of the product. I hope I was able to draw that 
distinction.
    Mr. Moran. But those other factors, temperature, they do 
have an effect upon not shelf life but upon the safety of the 
product?
    Dr. Eilert. If the pathogen is there, if the pathogen is 
present and if temperature abuse does occur.
    Mr. Moran. Maybe this is the point you are making with me, 
the pathogen, if it is going to be there, it is there from the 
slaughter.
    Dr. Eilert. The harvest facility.
    Mr. Moran. Right.
    Dr. Eilert. That is correct, Congressman. Yes.
    Mr. Moran. Okay.
    Dr. Eilert. And so we have to maintain--I mean, our----
    Mr. Moran. If you do your job in the beginning----
    Dr. Eilert. If we do our job in the beginning and then we 
control the cold chain throughout and that is from harvest, 
that is from processing, that is from case-ready packaging that 
is even distribution into the retail store, we will maximize 
the shelf life of the product and the quality and the eating 
experience. And additionally, if by some chance that organism 
was there to occur, we will minimize the potential for growth.
    Mr. Moran. When I read on a package that it says use by or 
sometimes it says use-by, sometimes it says sell-by, is there a 
distinction that is made by your company in what that means?
    Dr. Eilert. You want to take that?
    Dr. Minerich. No, there is no difference. There is use-by, 
sell-by, freeze-by, best-by. There are a number of words used 
to describe an estimated end of shelf life.
    Mr. Moran. And really that is a marketing phrase----
    Dr. Minerich. It is the----
    Mr. Moran.--because it is consumer satisfaction.
    Dr. Minerich. Correct. You know, there have been a number 
of studies as to what makes the most sense to consumers. Use or 
freeze-by is the date most often used by manufacturers because 
that is a date that is very familiar to consumers. But it is 
placed by the manufacturer, determined by the manufacturer 
because the quality attributes of these products are measured 
in different ways. Some could be a color change. Some could be 
texture. Some could be flavor. Some could be loss of vitamins. 
Or on medications, a loss of an active bioactive ingredient. So 
a use or sell-by date really is a manufactured date. We could 
put 10 days, 20 days, 30 days. But it is up to us, as Dr. 
Eilert mentioned, to be sure that we deliver to our consumer a 
product that gives them an enjoyable eating experience, 
otherwise they won't come back and buy from us. So we are 
usually very conservative on sell-by dates or use-by dates.
    Mr. Moran. Mr. Chairman, thank you.
    The Chairman. Thank you, gentlemen. The gentleman from 
Wisconsin, Mr. Kagen. Now, we have our own doctor who I know 
knows more about this than I do but Dr. Kagen.
    Mr. Kagen. Well, you probably want comparison by how much 
we eat. I want to thank you, first of all, for your testimony 
and also for your industry for bringing forward a wide array of 
food products that have been safe and very nutritious. And I 
grew up on Hormel and now that I am no longer a practicing 
physician but a politician, tell you, without chicken, we 
wouldn't be having very many fund-raising events because that 
is all they seem to serve. But I won't get into the appearance 
of that meat or the tastiness or its rubber quality.
    Dr. Sebranek, you went to one of the finest universities in 
this land, University of Wisconsin, as did I, and I want to 
thank you. I assume you don't represent any commercial interest 
here at Iowa State University and you don't receive any funding 
from corporations, is that true?
    Dr. Sebranek. No, my research emphasis, my research 
supports comes only from the USDA. My packaging work has not 
been funded by the industry.
    Mr. Kagen. Well, let me address most of my few minutes of 
questioning towards you because in your written testimony, you 
indicated that carbon monoxide has some benefits. Has benefits 
for the appearance, the product, the flavor and the tenderness. 
I am going to have to take your word for it because I haven't 
studied it. And you also mentioned that Dr. Doyle from the 
University of Georgia has studied the potential anti-microbial 
activity of carbon monoxide. Am I correct that he compared the 
use of carbon monoxide in the packaging versus the aerobic 
packaging?
    Dr. Sebranek. Yes, that is correct.
    Mr. Kagen. And he didn't study the anaerobic. Because as 
you and I know as scientists, if you take the oxygen away, you 
get much less bacterial growth.
    Dr. Sebranek. That is correct.
    Mr. Kagen. So he didn't study the anaerobic packaging of 
the meat, he studied it against aerobic open-air packaging, 
basically?
    Dr. Sebranek. Correct. But it is important to keep in mind, 
the absence of oxygen is the major advantage in all these 
systems, whatever they are.
    Mr. Kagen. Right. You also indicated, hinted in somewhat 
strong fashion, that irradiation might actually be better as an 
anti-microbial protection of meat products than carbon 
monoxide, is that true?
    Dr. Sebranek. From the microbial standpoint, that is 
correct. It can be very, very effective.
    Mr. Kagen. Okay. And the other question I have, with regard 
to these studies that you mentioned and also your counterparts, 
were these studies on the ability of carbon monoxide to protect 
the meat, to prevent it from spoiling, were they done before or 
after it was put into the field and into practice?
    Dr. Sebranek. The studies that----
    Mr. Kagen. Yes.
    Dr. Sebranek.--we talked about?
    Mr. Kagen. The studies themselves, were they performed 
after it started to be used in the public?
    Dr. Sebranek. Well, I guess from the standpoint of 
scientific studies they have accrued in both situations. There 
were studies prior to the commercial introduction, if I am 
understanding your question correctly.
    Mr. Kagen. So if I looked at the----
    Dr. Sebranek. And after as well.
    Mr. Kagen. So if I looked at the date of Dr. Doyle's 
publication, it would be before the use of carbon monoxide was 
approved by any government organization?
    Dr. Sebranek. Yes, right.
    Mr. Kagen. Okay. Very interesting. Now, the other thing I 
am learning here, because I really don't know all the rules of 
the USDA, but in the field in which I practiced for 30 years, 
allergy immunology, we had expiration dates on our allergy 
vaccines and every prescription drug that is licensed by the 
FDA has expiration dates that have some scientific merit and 
some scientific determination. Am I correct if I interpret what 
all of you have said that freeze or sell-by dates are sort of 
made up as you go along?
    Dr. Roop. I would like to comment on that.
    Mr. Kagen. Sure.
    Dr. Roop. They are not made up. They are scientifically 
determined by R&D staffs at our companies.
    Mr. Kagen. Okay.
    Dr. Roop. So it is not a random date.
    Mr. Kagen. So every product that your company makes 
releases to chain stores has the same date?
    Dr. Roop. No. All like products are evaluated based on how 
they are packaged and how they are handled through the process 
and then a sell-by date is determined.
    Mr. Kagen. So you determine the sell date by some objective 
means?
    Dr. Roop. That is correct.
    Mr. Kagen. Is it the initial bacterial load in the product 
as it goes out your door or how do you determine that?
    Dr. Roop. It is done by actually taking packaging prior to 
introduction and putting it in storage and observing the 
organoleptic properties and measuring the bacterial load as it 
increases over time.
    Mr. Kagen. So each product that you send out the door isn't 
studied for its potential degradative rate?
    Dr. Roop. Is or isn't?
    Mr. Kagen. Is not.
    Dr. Roop. All like products that have a sell-by date are.
    Mr. Kagen. Okay. So do you sample each product that comes 
off the line? Do you take a sample as we do in the dairy 
industry? We take samples from our milk producers, we take 
samples into the laboratory and do colony counts and bacterial 
counts. Do you do that with the meat product as well?
    Dr. Roop. All products are verified on a regular basis, not 
every product.
    Mr. Kagen. But in the production line, like let us say 
October 19, we could look at some bacterial data that you have? 
I see somebody nodding their head in the background. Either 
they are falling asleep or they are agreeing.
    Dr. Roop. There will be verification checks, yes, sir.
    Mr. Kagen. Okay. All right. Well, I thank you very much for 
your time and for your attention. I look forward to asking you 
more questions in written form. I yield back my time.
    The Chairman. I thank the gentleman. The gentleman from 
Virginia, the Ranking Member, Mr. Goodlatte.
    Mr. Goodlatte. Thank you, Mr. Chairman. Mr. Chairman, the 
gentleman from Missouri, Mr. Graves, has asked that this 
statement be made part of the record.
    The Chairman. Well, all Member statements will be made part 
of the record for today's hearing.
    Mr. Goodlatte. Thank you. Let me just ask all the 
panelists, there has been some testimony referencing the role 
of modified atmosphere packaging in reducing the prevalence of 
pathogens such as E. coli and since we are having a 
subcommittee hearing next week to discuss recent recalls for 
that pathogen, I wonder if you might take a moment to expand on 
this particular quality of the technology. Some of those who 
are advocating certain labeling requirements and so on seem to 
be suggesting that the technology is primarily used for the 
appearance of the product. I am hearing you reassure us that it 
is primarily for the safety of the product. I wonder if you 
might address that particular concern with regard to E. coli or 
modified atmosphere packaging that utilized to address that?
    Dr. Minerich. Congressman, you are correct on your earlier 
statement. The primary development goal for this technology was 
to advance previous technologies in delivering a quality 
product to our consumer. Some of the follow-up studies that 
were asked about by a previous Congressman were done following 
market introduction but I refer back to the study done by the 
European commission in 2001, which was done prior to the 
introduction of this low-ox lid stock technology. So there were 
follow-up studies and what the scientific community tends to do 
as it is trying to validate technologies is explore all 
possibilities. You never do explore every possibility but you 
certainly want to be looking for opportunities that maybe this 
technology might actually encourage growth of O157:H7, which 
would be negative. We don't want to do that. So we were 
pleasantly surprised to see in these follow-up studies that 
actually this packaging environment suppressed the growth of 
that pathogen. That was an unexpected evaluation of the 
technology but it was something that we certainly embraced. The 
packaging technologies were created to extend the shelf life of 
the product or, as Dr. Eilert says, preserve the shelf life of 
the product that existed prior to being placed in the tray and 
give our consumers a good eating experience while maintaining 
integrity of the package, preventing cross-contamination and 
putting on the code date and the manufacturing facility.
    Mr. Goodlatte. But are you saying it also appears to have 
some other benefits?
    Dr. Minerich. Yes, it does.
    Mr. Goodlatte. Is that the answer to my question?
    Dr. Minerich. And that is the data on three separate 
studies.
    Dr. Eilert. Congressman, if I may expand on that?
    Mr. Goodlatte. Sure, please.
    Dr. Eilert. One of the comments that you made is the 
ability of this packaging format, this modified atmosphere 
packaging format, to prevent the prevalence of a O157:H7. Let 
me go back to the conversations from Dr. Rubin, Tyson, and then 
some of the earlier points. We are controlling the prevalence 
of the pathogen at the harvest facility. Now, at the point of 
packaging and in the supply chain in our packaging, the goal is 
to minimize the opportunity for growth if that pathogen did 
occur. Now, when our companies, Cargill and Hormel were a part 
of the joint venture precept, when we first looked at this 
technology, the first place we looked, as Dr. Minerich pointed 
out, was to make sure that the environment that we were putting 
the meat in was not going to contribute to increased risk. And 
the studies done in Norway and other studies done in the United 
States, we were confident that there had been enough scientific 
evidence that we weren't increasing risk with this format. Now, 
because of the high levels of CO<INF>2</INF> that Dr. Sebranek 
talked about that are in this product, high levels of carbon 
dioxide, not carbon monoxide, we are able and we have proven 
now under abusive conditions, it will actually inhibit the 
growth under temperature-abuse conditions. That is not why we 
did it, it is an added benefit. But let me just assure the 
Committee that we went into this fully knowing, from the 
scientific evidence, years of scientific evidence around carbon 
monoxide, that we were not going to increase risk.
    Mr. Goodlatte. Well, let me follow-up on that. Consumer 
groups have raised concerns related to the fact that modified 
atmosphere packaged meat retains it color well beyond its shelf 
life. Are you working on any new technologies to address that 
concern?
    Dr. Minerich. Yes, we are always looking to advance 
technologies. So as we have been made aware how sensitive that 
issue is to some consumer groups, we continue to look forward 
to advances in this technology. I don't think you will ever see 
any of these three companies stop in our tracks on trying to 
advance food technology and food packaging technology that 
advances consumer acceptance and food safety.
    Mr. Goodlatte. Anybody want to add anything to that?
    Dr. Eilert. I think I would agree with Dr. Minerich. I 
mean, this is not the end. This is not the pinnacle of our 
work. Any good scientist, any good progressive research group 
within one of these large companies, once the first technology 
is introduced, then they should start working upon what the 
replacement or what the advancement of that next technology is. 
And I think all of the companies represented here, amongst some 
of our other colleagues, are committed to that whether that 
pertains to freshness or whether that pertains to safety. And 
so we are going to continue to advance this area. In the 
meantime, this technology represents one of those said 
advancements. And we think it is incredibly unfortunate that we 
are being inhibited to advance the technology because of a 
campaign of pressure from a competing technology.
    Mr. Goodlatte. Is there any concern and have you heard from 
any consumers when the carbon monoxide is not used and you have 
a problem with a meat turning brown with the consumer not 
knowing whether or not that has been cooked before they start 
utilizing it?
    Dr. Eilert. We have heard some of those comments and we 
have been aware of this evidence that meat can prematurely 
brown in high-oxygen packaging. That worries us. It is not 
where we want to be. At the same time, however, this has been a 
packaging format that has worked very well for a number of 
years for a variety of customers in supply chains. We recognize 
that that is an opportunity that we want to work on. So we 
think that as the technology evolved to high-oxygen packaging, 
that was a good thing. That allowed us to minimize that cross-
contamination that we spoke about. That allowed us to maintain 
the integrity of the supply chain in these products. Did we 
want to improve? Absolutely. We want to improve for a lot of 
the reasons that you heard today. And so we recognize that 
there were limitations to that technology, one of which was the 
flavor development issue, one of which was this concept of 
premature browning. We want to move past that. We want the 
technology to evolve.
    Mr. Goodlatte. And let me just ask you to satisfy all the 
consumers out there, do each of you feel comfortable serving 
meat that has been packaged in modified atmosphere packaging 
using carbon monoxide to your family and your friends?
    Dr. Eilert. I have two daughters. One is 12, one is 10. I 
am thankful to report that they are as carnivorous as the day 
is long. And I proudly and assuredly serve that product to my 
children on a regular basis.
    Mr. Kagen. Would the gentleman yield for a moment?
    Mr. Goodlatte. Yes, sir.
    Mr. Kagen. Would either of you object to the presence on a 
label of one of your products that carbon monoxide is being 
used?
    Dr. Eilert. Yes, we would.
    Dr. Minerich. Yes.
    Dr. Eilert. Now, one of the comments that I forgot to 
mention verbally but it is in my written text, because of the 
concerns that have been emphasized, we are willing to add 
additional language on our labels. And that additional language 
would read something to the effect of color is not an adequate 
indicator of freshness, please refer to use or freeze-by dates. 
We see that, Congressman, as being an instructive statement. If 
we were to put a statement, such as this product is packaged in 
carbon monoxide, we see that as a declarative statement. What 
the consumer doesn't necessarily--the consumer can't use that 
information. It would be the same as if we declared what the 
particular plastic resins are in the material. It doesn't 
provide the consumer with a lot of benefit. However, a 
statement that says--and we probably should have done this 
earlier. A statement that says color is not an adequate 
indicator of freshness, please refer to use or freeze-by dates. 
We are highly supportive of that and we are willing to 
implement that as soon as we can work with the USDA upon 
approval of that statement.
    Mr. Kagen. But if carbon monoxide is a good thing because 
it decreases the bacterial load in the product, wouldn't you 
want the consumers to know about the good things you are doing 
for them?
    Dr. Minerich. Packaging gases have never been labeled--if 
you were to label the packaging gas on this packaging system, 
on the cheese or on the sliced meats or on the bag of potato 
chips, if that is a level playing field we want to be in, we 
are all for it. If everybody labels their packaging ingredients 
but, as Dr. Eilert mentioned, we don't know what value that 
brings. Do you want to know that this is packaged in a high-
nitrogen atmosphere? Does that change your purchase decision? 
Do you want to know that this is a combination of gases to 
maintain freshness of bagged lettuce? What you really want is a 
good eating experience. That is what you want. And a use and 
freeze-by date is an important attribute to that.
    Mr. Kagen. I yield back.
    Mr. Goodlatte. I thank the gentleman for that question. I 
would say that information that is useful to the consumer is 
that they know what to do with it is more valuable than 
information that simply says something that may raise questions 
that are not answered on that same label.
    Dr. Eilert. We agree.
    The Chairman. I thank the gentleman. The gentleman from 
North Carolina, Mr. Etheridge.
    Mr. Etheridge. Thank you, Mr. Chairman. Dr. Minerich, the 
bulk of your testimony is pretty much directed toward packaged 
meats as I read it and mainly beef. And my question is, North 
Carolina is probably number two in pork and we have a lot of 
poultry. We have very little slaughtering of beef. To your 
knowledge, is there any operation that uses carbon monoxide or 
low-oxygen packaging that is utilized in the pork packaging?
    Dr. Minerich. Well, modified atmosphere packaging is used 
in pork but, to my knowledge, not carbon monoxide.
    Dr. Eilert. That would be incorrect, we do. Both Cargill 
and Hormel, in the joint venture, we produce and package beef 
and pork in the modified atmospheres containing carbon 
monoxide.
    Mr. Etheridge. Okay, thank you. Let me ask this, direct 
this question at each of you. Hopefully, we will have time to 
get an answer. The opponents of the modified atmosphere 
packaging charges that this practice deceives people in 
purchasing, what they call, spoiled meats. And assuming, and I 
know you don't want to assume this, correct, but just let us 
for a moment assume that to be correct. Seems to me that we 
would be seeing two results. One, an increase in the number of 
food poisoning from eating spoiled meats and, consequently, an 
increase in litigation against your companies and others or the 
supermarkets for selling it. So, generally, how often has your 
company been subject to litigation of this type since this 
technology has been utilized? Have your companies seen an 
increase in either the packaging processes litigation or can 
any of you explain to me why a company would engage in a 
practice if their opponents were correct, that would subject it 
to greater litigation?
    Dr. Minerich. We have not seen any litigation at all on 
this packaging technology. As I said, this has been one of the 
highest consumer acceptances of a product introduction in our 
company's history. So we have the 800 number boldly posted on 
there. We also stand alone in the food industry as having a 
money-back guarantee on this meat product. So we are 
encouraging consumers not only to call us if there is a 
problem, but we will give them their money back if there is a 
problem. And I understand the concern that people are buying 
spoiled meat. That is not happening. It goes back to the 
consumer acceptance level. They are not buying spoiled meat. 
But if they did buy spoiled meat, how did they know it was 
spoiled? It smelled or it looked funny for some reason or the 
package was bulging. There was some indicator that that was 
spoiled. Very similar to how do you know when milk is spoiled? 
You pour some on your cereal and you take the first bite and it 
is sour or it gurgles out. It is the same thing with orange 
juice. We have all consumed product that, I am not going to say 
has gone past its code date because it may have spoiled before 
its code date, depending on how it was handled, and still 
looked good, still looked wholesome. But you knew, through your 
experience of eating food your entire life, that that was going 
to give you a poor eating experience. It did not, however, 
increase your risk of food safety. It spoiled. It did not 
increase your risk of food safety. And that is a very difficult 
concept to understand but I will give you some very simple 
examples that will help you maybe, no pun intended, digest 
that. Yogurt. This used to be milk. It is curdled. By 
definition it is spoiled. And, as a matter of fact, you are 
eating this product because of how many bacteria are in this 
product. But it spoiled in a way that you enjoy it. You get a 
good eating experience out of this. You can spoil yogurt and if 
you leave it in the sun and different bacteria will grow in 
there, it will spoil and give you a poor eating experience but 
it will not jeopardize your health. This is not a food safety 
issue, it is a spoilage issue and that relates back to the 
shelf life: same thing with dry sausage; same thing with 
sauerkraut; same thing with cheese. Those are all products that 
have been selectively changed by the use of bacteria to, in one 
sense of the term, spoil it in a way that gives you a good 
eating experience. And the other spoilage organisms that cause 
the meat to sour or get milky or turn color or form gas, those 
will give you a poor eating experience. And you will smell it, 
you will see it, there will be an obvious reason as to why that 
spoiled and you will dispose of the product. And our 1-800 
number and our money-back guarantee on this product line 
certainly encourages people to communicate with us.
    Mr. Etheridge. Thank you.
    Dr. Eilert. Congressman, to directly answer your question, 
we have not entered into any litigation due to complaints from 
this packaging format. The rate of complaint, we are not going 
to say that we are perfect every time, sometimes we do not 
deliver because of one reason or another. The shelf life from 
these products can be highly variable. And so when our shelf 
life is not as good as it should be, we receive that feedback 
and react upon it. And if we don't, we won't be in business.
    Dr. Roop. Well, my answer has to be a little bit different 
because we are not into this type of packaging to the same 
degree as my colleagues. However, we do not oppose that type of 
packaging. I am unaware of any litigation to it. Thank you.
    Dr. Sebranek. Well, the separation of spoilage and 
pathogens is a critical one. People have commented that spoiled 
food has never caused food poisoning because it prohibits 
consumption. And that is actually, as we teach in some of our 
elementary courses in meat science, a protective mechanism. So 
it is very important in this situation to separate spoilage and 
pathogens.
    Mr. Etheridge. Thank you. Thank you, Mr. Chairman. I yield 
back.
    The Chairman. I thank the gentleman. The gentleman from 
Nebraska, Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman, and the panel. This has 
been quite educational and so I appreciate that. I know that 
through research and development everyone here on the panel 
devotes a great deal of effort into answering the concerns of 
the marketplace. I mean, I hear you saying that the marketplace 
is what speaks loud and clear and I would assume that a food 
safety issue will cost you far more than any savings on 
packaging. So I appreciate that. Are there any numbers that you 
would point to specifically that would lead us to support that 
last statement?
    Dr. Minerich. Can you repeat the last statement?
    Mr. Smith. Well, maybe job losses as to loss in consumer 
confidence after a particular food safety issue was reported or 
what have you.
    Dr. Minerich. Well, as Dr. Eilert mentioned, we work very 
hard in the industry to avoid that situation. I am aware that 
one recent food safety incident has caused the closing of a 
major food processing company in the East here and that is the 
type of concern that we have as we bring any product or any 
technology to market is that our brand, specifically, is not 
put at risk. So the science that is done before we go to 
market, the science that continues after we are in the market, 
continues to be strong to protect our brand and protect the 
product, protect the consumer.
    Mr. Smith. Okay. Thank you. I yield back.
    The Chairman. I thank the gentleman. The gentleman from 
Iowa, Chairman of the Livestock Subcommittee, Mr. Boswell.
    Mr. Boswell. Thank you, Mr. Chairman, and thank all of you 
for your participation today and I hope America is listening. 
Just to emphasize some things that some of you have said, I 
apologize to have you repeat it but I wanted to make it 
clearer. Dr. Sebranek, you mentioned that some critics say that 
MAP is deceptive and hazardous. Again, for the record, in your 
opinion, are either of these assertions true? Deceptive?
    Dr. Sebranek. I am sorry, would you repeat the question for 
me please?
    Mr. Boswell. You mentioned that critics say that the 
modification is deceptive and hazardous. In your expert 
opinion, are either of these assertions true?
    Dr. Sebranek. I am sorry, I having a little trouble picking 
up your question. I would like to ask to have it repeated for 
me. Yes, that is correct. The reason I say that is because the 
color is identical to what we have with the aerobic packaging 
and we have had many comments----
    Mr. Boswell. I think perhaps we are not understanding you 
but I think what you are saying is, it is not true, it is not 
hazardous and it is not deceptive.
    Dr. Sebranek. That is correct. It is not hazardous nor 
deceptive.
    Mr. Boswell. All right. I am sorry for--I have a little 
laryngitis, so I hope you will forgive me for that. Perception 
is sometimes like fact in some people's mind, but maybe give us 
a better way or another way that you could elaborate on how 
using carbon monoxide, which can be deadly to humans, you 
know--an old airplane I fly, I keep a little monitor in there. 
I don't want to go to sleep at the switch, so to speak. And so 
we have that perception as bad, which it is if it is over-
abundance, but how can we point out that it is not detrimental 
in the packaging you use? Because of the minimal amount?
    Dr. Eilert. Yes, that is correct. There is an adage, 
Congressman, that the dose makes the poison. A good portion of 
these products today contain ingredients that can be lethal if 
applied at too high of a level. Sodium nitrite, carbon dioxide, 
a host of others. And so there was a lot of work. I mean, in 
addition to the basic product safety work, there was also a 
human exposure element and a toxicology element to our review 
that we conducted when we presented this technology to FDA. And 
ourselves and predecessors in the industry showed that the 
levels of exposure to carbon monoxide in this packaging format 
are far below those levels that would be even close to being 
hazardous to humans.
    Mr. Boswell. I appreciate that. This is not what you 
expected today to have a question about but where I come from 
we have a lot of people that do home butchering and home 
freezing. And so constituents ask me, ``We have all these 
experts, what is the shelf life of frozen meat in the home 
freezer in a self-defrosting freezer?''
    Dr. Minerich. Well, that depends on the meats species and 
how it is packaged.
    Mr. Boswell. Well, let us say beef.
    Dr. Minerich. If beef is packaged well, you are going to 
talk about a shelf life that is 3 to 6 months for good eating 
quality. It will be safe for the entire period but what you 
risk in a freezer is dehydration. So if you have a packaging 
system that allows for gas transmission, like you bought some 
meat that was packaged at the local butcher, that has a high 
gas-transmission rate, you throw that in the freezer.
    Mr. Boswell. I think this constituent had something that 
they took to their local locker, had packaged at their request, 
they brought home to the farm and stuck in the freezer.
    Dr. Minerich. Yes.
    Mr. Boswell. So for how long is it safe?
    Dr. Minerich. How long is it safe is a different question. 
If it was contaminated at the local butcher, it is not safe 
from day one.
    Mr. Boswell. Okay, I understand that.
    Dr. Minerich. But you are talking about shelf life and 
eating quality and if you froze it in the white-wrapped butcher 
paper, it is probably going to have a good eating quality for 
maybe a month but it will dry out very fast. So I am sorry to 
say, as a scientific answer, it usually depends.
    Mr. Boswell. Usually depends. I yield back.
    The Chairman. I think the gentleman was wondering whether 
the pheasants and goose that he shot this weekend are going to 
last for----
    Mr. Boswell. No, I haven't got around to that yet.
    The Chairman. The gentlelady from Kansas, Mrs. Boyda.
    Mrs. Boyda. Thank you so much, Mr. Chairman. I just had 
some questions, somewhat out of curiosity and learning about 
this. I certainly appreciate what you are saying about 
competing technologies and maybe there is some lack of 
truthfulness that is going on here. But I have a couple of 
questions. When we are talking about--in the other packaging 
that you were referring to, does anything else use carbon 
monoxide in their modified environments?
    Dr. Minerich. Not that I am aware of.
    Dr. Eilert. We are aware that carbon monoxide is approved 
for some produce applications but we are not knowledgeable to 
know whether or not it is being applied.
    Mrs. Boyda. My question here coming up is more one of 
curiosity.
    Dr. Eilert. Okay.
    Mrs. Boyda. When you are talking about carbon monoxide, 
that it actually is binding and that what it is doing, is it 
binding with the hemoglobin in there to keep the bright red 
color. So, in fact, it is not an inert gas that is just sitting 
on top of everything, it is actually something that is now part 
of the product and it is really now part of a preservative.
    Dr. Eilert. The carbon monoxide does bind but it is not an 
irreversible bond. And so as the package is opened, then that 
carbon monoxide dissipates. Additionally, if there is carbon 
monoxide that is bound to the myoglobin molecule, during the 
heating process it also gases off in the heating process. And 
perhaps Dr. Sebranek could explain that even a little better 
than I have.
    Dr. Sebranek. Yes, that is correct. Even though it is a 
stronger bond than in the case of oxygen, it is lost from the 
pigment over a period of time or in exposure to heat. So you do 
get browning of the product during cooking, for example. The 
preservative, the anti-microbial effect is primarily due to 
carbon dioxide.
    Mrs. Boyda. Correct.
    Dr. Sebranek.--in that atmosphere.
    Mrs. Boyda. And I got that one too. Because that is what I 
was wondering. What happens to the carbon monoxide? If it is 
driven off, then we have the same problem of brown is brown and 
how do you know if it is pink? I cook towards pink and, quite 
honestly, I like my steak very pink, forget that, I like it 
red. But it has just got to be, and just logically it has got 
to be kind of one or the other. The high-oxygen environment has 
the problem with turning it brown so you can't tell if it is 
cooked. So either the CO is hanging on and it is staying pink 
or it is gone and it is going brown. I am just trying to figure 
out where that is coming in.
    Dr. Sebranek. Well, you do in some cases get a longer 
retention of pinkness sometimes in the center of cuts with 
carbon monoxide to retain pink for a longer period of time 
during cooking. But that is not necessarily a bad thing----
    Mrs. Boyda. No.
    Dr. Sebranek.--from the cooking standpoint.
    Mrs. Boyda. What I am curious about is who helps you with 
your labels? Does USDA have label requirements or is it FDA?
    Dr. Eilert. Yes. The Standards of Labeling Division of the 
USDA.
    Mrs. Boyda. I am just curious again. This is interesting. 
The competing technology that you had and I don't even know 
what it is, was it required to be on the label?
    Dr. Eilert. Yes, it was. It was an ingredient.
    Mrs. Boyda. You know where I am going with this. I don't 
understand why the carbon monoxide--it is not like it--the rest 
of the packaging environments that you are talking about are 
inert environments meant----
    Dr. Sebranek. No.
    Mrs. Boyda.--to be pretty much inert.
    Dr. Eilert. But they are not inert. Even the oxygen that is 
in a high-oxygen package is not inert. It has a----
    Mrs. Boyda. Well, obviously, because that is what----
    Dr. Eilert. Right.
    Mrs. Boyda. Right.
    Dr. Eilert. Right. The carbon dioxide that we have in these 
packages, as well as in a lot of perishable items, even, for 
instance, produce, cheese, and a lot of perishable items, non-
shelf stable items, will use carbon dioxide. That carbon 
dioxide reacts with the moisture in the food to form carbonic 
acid in the food and that has an inhibitory effect against 
micro-organisms. Now, as the product is consumed, as it is 
removed from that environment and it is prepared, that 
dissipates. And so, again, I think as you think about gases, 
you almost have to think about gases in terms of they are 
almost like packaging materials and less like ingredients. 
Because at the end of the day as I consume the meat, as my 
daughters consume the meat that is in that carbon monoxide 
packaging, the intake of carbon monoxide is negligible.
    Mrs. Boyda. Yes.
    Dr. Eilert. However, if I add----
    Mrs. Boyda. That I don't disagree with you about.
    Dr. Eilert. Okay. But if I add an ingredient--if I add what 
is being referenced as a natural flavoring, which is the 
competing technology. It is referred to as a natural flavoring 
but it has a functional effect, it is there in the meat that my 
family consumes. And so I think, as I look at packaging gases, 
as we look at packaging gases, and I believe this is how the 
Labeling Division has also looked at packaging gases, since 
they no longer have a lasting effect or a residual content in 
the product that is consumed, then it is not an ingredient.
    Mrs. Boyda. Then can I cook a steak and keep it red?
    Dr. Minerich. In our package, yes.
    Dr. Eilert. Can you cook a steak----
    Mrs. Boyda. Can I grill a steak and keep it red?
    Dr. Eilert. As long as you don't cook it to too high.
    Mrs. Boyda. But if I cook my steak to medium rare or to 
rare----
    Dr. Eilert. Right.
    Mrs. Boyda.--then it is going to be red?
    Dr. Eilert. Correct.
    Dr. Minerich. In the low-ox packaging system.
    Dr. Eilert. Right.
    Dr. Minerich. Yes.
    Dr. Eilert. Right.
    Dr. Minerich. But you will have a very difficult time doing 
that in a high-ox packaging system.
    Mrs. Boyda. Yes.
    Dr. Minerich. Especially at the end of the code date.
    Mrs. Boyda. I appreciate the update. This is a learning 
experience for me.
    Dr. Eilert. We appreciate the questions.
    Mrs. Boyda. I come from a background with the FDA, so the 
whole thing of binding--it seems to be, even though it must be 
an incredibly small amount of ingestion, I just don't 
understand how it is not part of the label. I can understand 
why you wouldn't want it to be part of a label. I am just kind 
of wondering how it doesn't seem to be part of a label.
    Dr. Eilert. And to me it still comes down to the base fact 
that----
    Mrs. Boyda. Sure. You are talking about absolutely 
negligible amounts.
    Dr. Eilert. Negligible amounts----
    Mrs. Boyda. Extremely negligible amounts.
    Dr. Eilert.--and compositional quantities. So, I mean, the 
meat that we eat is made up of moisture, fat----
    Mrs. Boyda. Yes.
    Dr. Eilert.--protein, minerals, vitamins. We can analyze 
for those things. Those things are there. We can analyze for 
the carbon dioxide or the carbon monoxide and we would hardly 
be able to find them.
    Mrs. Boyda. No, I wouldn't disagree with that.
    Dr. Eilert. Okay.
    Mrs. Boyda. All right. Thank you so much.
    Dr. Eilert. Thank you.
    The Chairman. I thank the gentlelady and I think in light 
of this last discussion, it again points out how disappointing 
it is to me that the other company that is involved in this 
chose not to be here today. I think this has been a very 
educational process. I have learned some more today. I think a 
lot of the Members did and that was the purpose of what I was 
trying to do here. Had that other company been here, I think we 
could have gotten a little bit more understanding of exactly 
what is going on here but there may be another day for that. We 
have a vote in 15 minutes. Unless any other Members, Mr. Costa, 
do you have questions? The gentleman from California.
    Mr. Costa. Sorry, gentlemen. This will only be 5 minutes 
and relatively tame I hope. I am not sure who is the best to 
address this question but you might look around since you folks 
feel comfortable with one another. Is there, in your view, any 
changes that we ought to be considering as it relates to the 
law with the FDA, the Food and Drug Administration, on how we 
deal with food packaging in its entirety in this country? I 
mean, the whole issue of food safety, of course, is on people's 
minds these days, not only in terms of issues like E. coli and 
importation of various food products. You were talking earlier 
about state of the art and always moving science forward, I am 
trying to remember which gentleman indicated that. What else 
could we be doing?
    Dr. Minerich. I would encourage innovation. One thing we 
haven't talked about in the form of packaging is active 
packaging. I don't see it in here right offhand but many of 
these types of packages have an oxygen-absorbing scavenger in 
it and that is an actual element, just like this, that is 
placed in the package to absorb oxygen. And as you look at 
these advances in packaging technologies, different films, 
different papers, different trays, they are all designed to 
protect the food from the point of manufacture to the consumer. 
And so anything that can be done to encourage innovation would 
be appreciated.
    Mr. Costa. So those are other processes that control 
microbial activity outside of the packaging? What about those?
    Dr. Minerich. As Dr. Eilert mentioned, carbon dioxide has 
been used now for a number of years because it does react with 
the moisture in the package, creates carbonic acid, which 
actually acts to inhibit microbial growth in packaging systems. 
As Dr. Sebranek mentioned, irradiation is a great combination 
technology with some other packaging atmospheres that helps, as 
a synergistic effect, it will help boost the lethality of that 
system.
    Dr. Sebranek. I might add that in the research arena, there 
are people looking at ways of incorporating a variety of anti-
microbial protective agents into packaging films. They would 
interact with the product in such a way to prevent that 
oxidative change or microbial changes and so forth. That is a 
very active area of research right now. I think we might see 
incorporation of various kinds of protective agents into 
packaging films in the future.
    Mr. Costa. It seems to me that all of you folks, both 
working on the academic side and the scientific community and 
those representing various leading companies in this country, 
have been at the cutting edge. I think all of you probably 
agree that sound science is the best methodology in terms of 
the pursuit of health and safety goals. Is that not correct?
    Dr. Eilert. Correct.
    Dr. Minerich. Correct.
    Mr. Costa. I want to make note on that point, recently an 
industry from my district received the Richard L. Knowlton 
Innovation Award, which I think is sponsored by Hormel and 
others. Dave Wood and the Harris Ranch operation won for their 
innovation and their technology. They always are focusing on, 
and I have toured their facility a number of times on, Best 
Sound Science. I want to know, do any of you believe whether or 
not science indicates that there are any current health risks 
associated with the various packaging on food safety? I know we 
talked about the different methodologies that are preferred or 
used today. Is there any preferred methodology in terms of the 
science?
    Dr. Eilert. I think that it is important to remember and as 
we have discussed in this forum, as it pertains to fresh red 
meat or fresh meat and poultry, the primary point of control of 
the occurrence of pathogen is at the harvest level. As long as 
packaging systems do not increase the potential for rate of 
growth or do not increase the overall risk if that pathogen 
should happen to occur, then I think a lot of these packaging 
formats can be as safe as each other. The importance of using 
packaging is to prevent the opportunity for risk like cross-
contamination.
    Mr. Costa. But based on risk assessment versus risk 
management, there has been no comparative analysis on the 
various methodologies that we have discussed here today?
    Dr. Eilert. I don't think there has been a comprehensive 
risk analysis, as well as risk prevention, comparison of each 
of the technologies.
    Mr. Costa. From nitrogen to carbon monoxide to high----
    Dr. Eilert. Well, in that respect, there are gases that--
the primary gases we use in food packaging that has an anti-
bacterial effect, at the levels that we would normally use, is 
carbon dioxide. Oxygen has really no inhibitory effect on 
pathogen growth.
    Mr. Costa. Nitrogen?
    Dr. Eilert. Nitrogen does not have an inhibitory effect on 
pathogen growth. And at the levels that we are using, carbon 
monoxide----
    Mr. Costa. And irradiation.
    Dr. Eilert. Irradiation does, irradiation is a kill step. 
It is not an inhibitor, it is a kill step.
    Mr. Costa. All right. Thank you, Mr. Chairman, and I thank 
the members of the panel for your very thoughtful testimony.
    The Chairman. I thank the gentleman and hearing no further 
questions, we will dismiss this panel. We still have Mr. 
Almanza, the new Administrator for FSIS with us. So, gentlemen, 
thank you very much. It has been very informative and we 
appreciate your being with us here today.
    Dr. Eilert. Thank you, Mr. Chairman.
    The Chairman. And Mr. Almanza, we will call you to the 
witness stand and welcome your testimony and get your take on 
what all these guys have said here. Mr. Almanza, am I saying 
that right, Almanza.
    Mr. Almanza. Yes, sir.
    The Chairman. Welcome to the Committee. I understand this 
is the first time you have been before the Agriculture 
Committee. We welcome you here today.
    Mr. Almanza. Yes, sir.
    The Chairman. You are accompanied by Mr. Phil Derfler, is 
that correct? Am I saying that right?
    Mr. Derfler. Yes, sir.
    The Chairman. And Dr. Engeljohn?
    Dr. Engeljohn. Yes, thank you.
    The Chairman. All right. So we are going to have a vote 
here in a little bit but I think we have enough time to get 
through your testimony. I have some questions and I don't know 
what your timing is but we may have to run over and vote and 
come back, are you okay with that?
    Mr. Almanza. I am here for as long as you need me.
    The Chairman. Very good. Well, welcome to the Committee and 
we look forward to your testimony.

STATEMENT OF ALFRED V. ALMANZA, ADMINISTRATOR, FOOD SAFETY AND 
             INSPECTION SERVICE, U.S. DEPARTMENT OF
         AGRICULTURE, WASHINGTON, D.C.; ACCOMPANIED BY
        PHILIP S. DERFLER, ASSISTANT ADMINISTRATOR; AND
          DANIEL L. ENGLEJOHN, Ph.D., DEPUTY ASSISTANT
          ADMINISTRATOR, OFFICE OF POLICY, PROGRAM AND
EMPLOYEE DEVELOPMENT, FOOD SAFETY AND INSPECTION SERVICE, U.S. 
                   DEPARTMENT OF AGRICULTURE

    Mr. Almanza. Thank you. Mr. Chairman and Members of the 
Committee, thank you for inviting me to appear before you today 
to discuss technologies in the meat industry and the processes 
that the United States Department of Agriculture and the Food 
Safety and Inspection Service use to review new technologies to 
protect public health.
    Before I begin, as this is my first time appearing before 
this Committee, let me take a moment to introduce myself. I am 
Al Almanza, Administrator of USDA's Food Safety and Inspection 
Service. I have been with FSIS for almost 30 years and have 
held numerous positions beginning on the slaughter line in 
Dalhart in the Texas Panhandle. Prior to becoming Administrator 
at FSIS, I was the Dallas District Manager. I believe my field 
experience at the front lines of the agency helps my work a 
great deal as the Administrator. As the District Manager and 
now as Administrator, I know that there are things that can be 
done at the agency that would benefit all, consumer groups, 
industry and employees. One such thing is encouraging the use 
of beneficial new technologies in the meat industry.
    The development of new technologies is largely initiated by 
industry itself as it responds to consumer demands. There are 
two different types of technologies that are subject to review, 
processing technologies and ingredient technologies. Processing 
technologies are those technologies developed to aid in the 
production of meat, poultry and egg products. Examples of 
processing technologies that have been reviewed include carcass 
washes, steam vacuum and steam pasteurization. Ingredient 
technologies are those technologies that involve the addition 
of an ingredient to a product or the use of packaging to ensure 
safety, increase shelf life or provide other consumer benefits. 
Examples of this kind of technology include carbon monoxide 
packaging and irradiation.
    For my oral testimony I will focus on ingredient 
technologies. A second aspect of new technology involves the 
use of new food ingredients in meat food products. Prior to the 
year 2000, the review process for new ingredients was lengthy 
and cumbersome. FDA was responsible for the initial safety 
review. This was then followed by a review by FSIS to determine 
the acceptability or suitability of the technology. That is to 
determine whether the ingredients serve the purpose for which 
it was intended.
    In the year 2000, FSIS and FDA entered into a Memorandum of 
Understanding allowing simultaneous review of new technologies 
to increase the speed with which useful new food ingredients 
could be used. FDA determines the safety of the use of a food 
ingredient and its safe levels of use. At the same time, FSIS 
evaluates whether the ingredient is effective for its intended 
use. For example, as a flavoring agent. What this means is that 
FDA evaluates the available evidence to see if there is a 
reasonable certainty that no harm will result from the use of 
the substance. FDA looks at a range of evidence in making this 
determination, from published studies to data from studies 
performed by the sponsor to establish the safety of the use of 
the substance. As for FSIS, we evaluate data on whether the 
substance will have its claimed effect. In addition, we look to 
ensure that the substance will not mislead consumers by making 
it appear fresher or more appealing than it actually is. 
Because FSIS and FDA perform their functions at the same time, 
rather than sequentially, a food ingredient spends less time in 
review than it did before the agencies started working in this 
way.
    One form of technology used by the meat industry that has 
received a great deal of attention in recent months is carbon 
monoxide in packaging. Carbon monoxide is used to stabilize the 
color pigment of meat. When it is red and, therefore, most 
appealing to consumers, use of carbon monoxide in packaging 
does not impart a color to the meat, it simply maintains its 
naturally-occurring color.
    In 2002, carbon monoxide, for use as a component of 
modified atmosphere packaging, was accepted by FDA as being 
Generally Recognized As Safe or GRAS. Carbon monoxide does not 
become a part of the product and dissipates as soon as the 
package is opened. This is unlike other ingredients used to 
stabilize the red color of meat, such as citric acid, sodium 
ascorbate and rosemary extract, all of which actually do become 
a part of the product. However, to be sure consumers are not 
misled, FSIS has required a use-by, freeze-by date to be 
included on meat products that use carbon monoxide packaging. 
This is to ensure that the shelf life of the product ends 
before spoilage occurs.
    As Members of the Committee are no doubt aware, FDA has 
received a petition asking it to withdraw its decision that 
carbon monoxide in meat packaging is Generally Recognized As 
Safe. FSIS will continue to make its labeling decisions and its 
suitability reviews on the basis of FDA's safety conclusions.
    Thank you for the opportunity to testify before you today. 
I look forward to addressing any questions you may have and I 
also brought along Dr. Englejohn and Mr. Phil Derfler to assist 
me with the technical questions. Thank you.
    [The prepared statement of Mr. Almanza follows:]

Prepared Statement of Alfred V. Almanza, Administrator, Food Safety and 
  Inspection Service, U.S. Department of Agriculture, Washington, D.C.
    Mr. Chairman and Members of the Committee, thank you for inviting 
me to appear before you today to discuss technologies in the meat 
industry and the processes that the U.S. Department of Agriculture 
(USDA) and the Food Safety and Inspection System (FSIS) use to review 
new technologies and to protect public health.
    Before I begin, as this is the first time I am appearing before 
this Committee, let me take a moment to introduce myself. I am Al 
Almanza, Administrator of USDA's Food Safety and Inspection Service 
(FSIS). I've been with FSIS for almost 30 years and held numerous 
positions, beginning on the slaughter line in Dalhart, in the Texas 
panhandle. Prior to becoming Administrator at FSIS, I was the Dallas 
District Manager. I believe my field experience at the front lines of 
the agency helps my work a great deal as Administrator. As a District 
Manager, and now as Administrator, I know that there are things that 
can be done at the agency that would benefit all--consumer groups, 
industry, and employees. One such thing is encouraging the use of 
beneficial new technologies in the meat industry.
FSIS' New Technology Staff
    Application of new technologies may help protect consumers from 
physical, chemical, or biological hazards; reduce or eliminate such 
hazards in the product itself; and improve product quality. Conversely, 
the use of an inappropriate technology could result in a product that 
could endanger public health.
    At FSIS, we recognize the value that new technologies can offer for 
public health. Many new technologies have resulted in significant 
improvements in the safety of meat and poultry products. For this 
reason alone, FSIS would like to see new technological advances 
continue, provided those advances are deemed safe and appropriate.
    Because the development of new technologies often requires large 
amounts of capital and extensive infrastructure, many establishments--
especially small and very small establishments--have difficulty taking 
advantage of new technologies. This is one of the reasons why FSIS set 
up a New Technology Staff (NTS). NTS, working with our training, 
outreach, and education employees, provides assistance and disseminates 
information on new technologies.
Evaluating New Technologies
    The development of new technologies is largely initiated by 
industry itself, as it responds to consumer demands. There are two 
different types of technologies that are subject to review: processing 
technologies and ingredient technologies. Processing technologies are 
those technologies developed to aid in the production of meat, poultry, 
and egg products. Examples of processing technologies that have been 
reviewed include carcass washes, the steam vacuum, and steam 
pasteurization.
     Ingredient technologies are those technologies that involve the 
addition of an ingredient to a product or the use of packaging to 
ensure safety, increase shelf life, or provide other consumer benefits. 
Examples of this kind of technology include carbon monoxide packaging 
and irradiation.
Processing Technologies
    There are four basic questions FSIS asks when evaluating a new 
processing technology:

  <bullet> Will this technology affect product safety?

  <bullet> Will this technology affect inspection program personnel 
        safety?

  <bullet> Will this technology interfere with inspection?

  <bullet> Will this technology be consistent with existing 
        regulations?

    Establishments planning to use a new technology are responsible for 
ensuring the continued safety of their workers, their products, and the 
environment, inside and outside the establishment, as well as 
responsible for providing the information necessary for FSIS to examine 
the impact of the new technology on inspection procedures and 
inspection program personnel safety. We encourage facilities wishing to 
employ new technologies to notify to FSIS before they implement them. 
That way, the agency can assess the technology in light of the four 
questions I listed. The agency convenes an ad hoc group of experts from 
all relevant parts of the agency to perform this assessment. FSIS 
attempts to complete its assessment of the technology within 60 days. 
Once the assessment is complete, the agency lets the company know if it 
has a concern in any of the four areas. If the agency does, the company 
has an opportunity to do a study to address that concern.
    If the agency finds no basis for objection to the use of the 
technology, it posts a brief description of the technology on the FSIS 
website in order to inform all interested parties.
Ingredient Technologies
    A second aspect of new technology involves the use of new food 
ingredients in meat food products. Prior to 2000, the review process 
for new ingredients was lengthy and cumbersome. FDA was responsible for 
the initial safety review. This was then followed by a review by FSIS 
to determine the acceptability or suitability of the technology; that 
is, to determine whether the ingredient served the purpose for which it 
was intended. In 2000, FSIS and FDA entered into a Memorandum of 
Understanding allowing simultaneous review of new technologies to 
increase the speed with which useful new food ingredients could be 
used.
    FDA now determines the safety of a food ingredient and its safe 
levels of use, while simultaneously FSIS evaluates whether the 
ingredient has its intended technical effect. Allowing these 
evaluations to occur at the same time effectively decreases the time 
any food ingredient spends in review.
Carbon Monoxide in Meat Packaging
    One form of technology used by the meat industry that has received 
a great deal of attention in recent months is carbon monoxide in 
packaging. Carbon monoxide is used to stabilize the color pigment of 
meat, when it is red and, therefore, most appealing to consumers. Use 
of carbon monoxide in packaging does not impart a color to the meat; it 
simply maintains its naturally occurring color.
    In 2002, carbon monoxide, for use as a component of modified 
atmosphere packaging, was accepted by FDA as being ``Generally 
Recognized as Safe,'' or GRAS. Carbon monoxide does not become a part 
of the product and dissipates as soon as the package is opened. This is 
unlike other ingredients used to stabilize the red color of meat, such 
as citric acid, sodium ascorbate, and rosemary extract, all of which 
actually do become a part of the product. However, to be sure consumers 
are not misled, FSIS has established a use-by/sell-by date to be 
included on meat products that use carbon monoxide packaging. This is 
to ensure that the shelf life of the product ends before spoilage 
occurs.
    As Members of the Committee are no doubt aware, FDA has received a 
petition asking it to withdraw its decision that carbon monoxide in 
meat packaging is Generally Recognized as Safe. FSIS will continue to 
make its labeling decisions and its suitability reviews on the basis of 
FDA's safety conclusions.
Conclusion
    Thank you for the opportunity to testify before you today. I look 
forward to addressing any questions you might have.

    The Chairman. I thank you very much Administrator and thank 
you for being patient. I purposely put you after the first 
panel so we could educate the Committee a little bit about what 
the issues are. I thought it might help people focus on some of 
the questions that would be raised, although I think the other 
panel did a pretty good job. Can you explain, I think you did a 
little bit, but what the difference between an ingredient, 
which is regulated by FDA, and a process, which is regulated by 
you guys, exactly how all that works? I guess that is part of 
why we are in this situation we are in right now where we have 
the Energy and Commerce Committee over here doing one thing. 
So, just explain that process a little bit for me.
    Mr. Almanza. Well, as I said, we focus on the ingredient 
technologies or the addition of an ingredient to a product or 
the use of the packaging to ensure the safety. And the 
processing technologies are the intervention steps or other 
processes along the way of the process of producing the meat or 
poultry product.
    The Chairman. So the carbon monoxide decision was made by 
you guys but FDA had proclaimed it to be safe, is that correct?
    Mr. Almanza. Yes, sir. The FDA determines the safety of a 
food ingredient and its safe level of use and FSIS evaluates 
the suitability of its use.
    The Chairman. And you both did that on this product back, 
what, 2002 or 2003 or something like that?
    Mr. Almanza. 2002.
    The Chairman. Yes. Now, this rosemary stuff that this other 
company is using that wasn't here today. That has not been 
approved by you? That is approved by FDA, is that right, or how 
does that all work?
    Mr. Almanza. FDA determines the technology or approves the 
use of it, yes, sir. And then we were the ones that evaluate 
the suitability of it.
    The Chairman. So you have a role in that as well?
    Mr. Almanza. Yes, sir.
    The Chairman. And that was approved by FDA and by you?
    Mr. Almanza. Yes, sir.
    The Chairman. When?
    Mr. Almanza. We would have to check but we could certainly 
get back to you.
    The Chairman. So probably some time prior to 2002?
    Mr. Almanza. It would be speculative on my part but I can 
certainly get back to you on that, and provide you that 
information.
    The Chairman. So in this approval process, in this area, it 
is just you and FDA that have a role, there is nobody else 
involved in this?
    Mr. Almanza. Yes, sir. It is just us and the FDA. I think 
Mr. Derfler had something to add.
    Mr. Derfler. From rosemary extract, if it is Generally 
Recognized As Safe, it can go on to the market actually without 
prior approval.
    Mr. Almanza. It is exempt from the food additive provisions 
and, therefore, can enter the market. So we are not exactly 
sure when it went on.
    The Chairman. So why is it exempt?
    Mr. Almanza. Under the definition of a food additive in the 
Food, Drug, and Cosmetic Act.
    The Chairman. I don't understand. So certain things are 
exempt because they have their, what, minimal or something?
    Mr. Almanza. If there is a general recognition of safety 
among scientists, it doesn't meet the definition of a food 
additive and so then there is no pre-market clearance required.
    The Chairman. Required.
    Mr. Almanza. Yes.
    The Chairman. So they didn't have to get approval to do 
this?
    Mr. Almanza. I am not sure of the exact status of rosemary. 
I just wanted to make that clear to you.
    The Chairman. And explain to me how this works. It turns 
the meat or keeps the meat pink like carbon monoxide does, is 
that what it does?
    Mr. Almanza. Yes, sir.
    The Chairman. So why aren't the consumer groups complaining 
about this? I mean, if they think the problem is that carbon 
monoxide keeps meat pink, why aren't they concerned about this 
other process?
    Mr. Almanza. I really can't answer that, sir. I don't know 
why.
    The Chairman. Do any of you know?
    Mr. Derfler. No, sir.
    The Chairman. Well, hopefully we will be able to talk to 
them at some point. What do you do at FSIS to encourage the 
industry to adopt new technologies? Do you have any kind of 
ongoing process where you work with the industry to encourage 
them to improve their technologies or with research 
universities?
    Mr. Almanza. Well, we have a staff that handles all these 
new technologies that are submitted to the agency and certainly 
anything that is beneficial to the consumers and is in the best 
interest of the consumers. We have a lot of requests from the 
industry to evaluate new technologies.
    The Chairman. But you don't actually go out and find new 
technologies or have anybody within your agency that is working 
on this?
    Mr. Almanza. No, sir.
    The Chairman. You just sit back and wait to look at 
whatever people bring you?
    Mr. Almanza. Yes, sir.
    The Chairman. The gentleman from Wisconsin.
    Mr. Kagen. Thank you, Mr. Chairman, and thank you very 
much, Administrator, for being here today. We had a few moments 
to chat beforehand and I appreciate how you got into the 
business of food safety and USDA. I understand your father 
served at USDA for many years.
    Mr. Almanza. Yes, sir.
    Mr. Kagen. Well, I congratulate you in following in his 
footsteps. One of the things that concerns me is the fact that 
if we are going to have progress in new technologies that is 
really industry-dependent instead of being generated, perhaps, 
by your department. Has the FSIS ever been interested in 
developing new technologies? And I will give you just a couple 
of examples. Some concerns that everybody in America has today 
about the safety about imported food, not just from China but 
from anywhere in the Caribbean or elsewhere. Would your 
Administration be interested in developing a new technique or 
technology to assay and test and determine very rapidly and 
cost effectively if an imported food substance was contaminated 
with E. coli or other pathogens?
    Mr. Almanza. Well, sir, and that is a very good question 
because as a regulatory agency, we don't fund research per se. 
I think that those are great ideas but I don't know how we 
would reach that level to do that.
    Mr. Kagen. Well, let me get to a basic question. Who is 
inspecting our imported food stuff? I understand that 0.1 
percent of imported foods, be it meat or vegetables or fish, is 
being inspected. Who is doing that?
    Mr. Almanza. We have import inspectors, yes, sir.
    Mr. Kagen. So that is under your purview?
    Mr. Almanza. Yes, sir.
    Mr. Kagen. And when they inspect this imported food stuff, 
what is it that they do? Do they use a magnifying glass? What 
is the extent of their inspection?
    Mr. Almanza. Actually, 100 percent is visually inspected, 
meat and poultry products, before they come into the country or 
as they are coming into the country. But again, it is only 
meat, poultry and egg products. And also, we also do a 10 
percent more-intense inspection of some of those imported 
products, such as we make sure that the containers are still 
intact, we make sure that the product is as it is labeled and 
things of that nature. So we do some residue----
    Mr. Kagen. So that the containers--
    Mr. Almanza.--testing.
    Mr. Kagen. Correct. So the can isn't punctured or dented or 
the cellophane is not perforated.
    Mr. Almanza. Exactly.
    Mr. Kagen. I understand. Well, are any other countries, 
other than the United States, using carbon monoxide and if they 
are, are they putting carbon monoxide on the label? And the 
reason I get at this question is because if you are visually 
inspecting imported meat products from any country, other than 
the United States, if it looks good, it must be good. Is that 
what they are doing, they are visually inspecting? You wouldn't 
know if it wasn't on the label if CO or any other stabilizer of 
the myoglobin or hemoglobin was present.
    Mr. Derfler. Actually, in addition to them doing the visual 
inspection, we, and other countries that export this to the 
United States, have to have inspection systems that are 
equivalent to ours. And so in the course of that, we make sure 
that their systems do provide the same level of safety 
protection.
    Mr. Kagen. So part of your inspection process is to trust 
that a foreign nation is doing their job and living up to our 
standards or whatever standards are in the trade agreement, is 
that right?
    Mr. Almanza. Well, we go over and verify on an annual 
basis.
    Mr. Kagen. I see. So you actually go to other countries to 
inspect their food processing facilities?
    Mr. Almanza. Yes, sir.
    Mr. Kagen. Excellent. Have you ever found any other 
facilities elsewhere, offshore facilities, that did not meet 
our standards? No pun intended.
    Mr. Almanza. We have found countries that were not 
equivalent.
    Mr. Kagen. What did you do to remediate that situation?
    Mr. Derfler. We de-list the individual. We work with the 
foreign country to de-list the individual plants and ultimately 
we may take more action.
    Mr. Kagen. And is that list generally available? I mean, if 
Hormel or Tyson had any such problem, our national media would 
be all over it. Do you present that to the public in any form 
or fashion? Is there any way that my constituents in Wisconsin 
would understand which companies or which nations had fallen to 
arrears with this regard?
    Mr. Derfler. We list the nations that are equal to in the 
Code of Federal Regulations and we do a rule-making process 
before we list them.
    Mr. Kagen. Okay, all right. So maybe off camera, maybe you 
can provide my office with a list of companies or food 
processors elsewhere offshore that have not met up to our 
standards so I could at least take a sampling of what the 
inspection process really is all about. Finally, you are aware 
of the studies done on irradiated food. Is irradiation a safer 
technique for eliminating bacterial contamination than use of 
carbon monoxide?
    Mr. Almanza. Is it safer? I would say that the product is, 
for the experience that we have, the product is safe. I really 
can't comment on it being safer.
    Dr. Engeljohn. If I could Congressman? We do agree that 
irradiation is an effective technology. It has been found to be 
safe. And it is, as was mentioned earlier in the testimony, a 
kill step in that it does eliminate pathogens as opposed to 
just prevent them from growing.
    Mr. Kagen. Is it something that you then recommend to 
industry that they pursue such studies or such use?
    Dr. Engeljohn. The issue of irradiation, much like what we 
are discussing with carbon monoxide, also relates to FDA 
approving the technology, in this case, as a food additive. 
FSIS, in this particular case for irradiation and its use on 
meat and poultry products, petitioned our sister agency to 
allow its specific use on meat and poultry as well because we 
did find that it would be an effective elimination of pathogens 
on the products that we regulate.
    Mr. Kagen. What is the current status of that solicitation?
    Dr. Engeljohn. Irradiation is approved for use on certain 
meat and poultry products and, much like all food additives, 
once it is determined to be safe and effective and suitable for 
its use, we let the marketplace determine whether or not its 
use is going to be available to consumers.
    Mr. Kagen. And my final question would be, do you have an 
opinion from your Administration as to whether or not there 
should be any labeling of meat or other products with regard to 
the use of carbon monoxide?
    Mr. Almanza. No, we would certainly evaluate it when we got 
the request. The other thing I would answer to your earlier 
question. We have ARS, the Agriculture Research Service, and C-
R-E-E-S, that both do research and we let them know of our 
needs, so that is the research question.
    Mr. Kagen. Very good. Thank you very much for your time. I 
yield back.
    Mr. Almanza. Thank you.
    The Chairman. I thank the gentleman--just one moment--we 
sent you a letter, Administrator, on September 17 regarding a 
public health alert that you issued on August 30. We are having 
a hearing next week in Mr. Boswell's Subcommittee. We have not 
received a response yet. Will we have a response before that 
hearing?
    Mr. Almanza. Yes, sir.
    The Chairman. Very good. The gentleman from Virginia, Mr. 
Goodlatte.
    Mr. Goodlatte. I thank you, Mr. Chairman. Administrator 
Almanza, welcome. Welcome all of you. I would like to follow up 
on some of the questions I asked the first panel. Legislation 
has been introduced that would require a safety notice be 
included on meat and poultry labels warning consumers that 
carbon monoxide was used and that they should not rely on the 
use-by, freeze-by labels. USDA mandated the use-by, freeze-by 
label and I wonder if you would support legislation that 
suggests that this label is insufficient?
    Mr. Almanza. We would look at the request, as we do with 
any other request, Congressman.
    Mr. Goodlatte. Do you have any feeling about how the 
current system is working?
    Mr. Almanza. We are confident with the system and how it 
currently functions with FDA and FSIS doing it simultaneously.
    Mr. Goodlatte. And on the previous panel, Dr. Sebranek 
stated in his testimony that carbon monoxide technology has 
been used commercially for almost 5 years and there have been 
no complaints that he was aware of from consumers about 
unexpected or unusual spoilage. The technology is establishing 
a track record that has been free of problems and has not been 
an issue with consumers. Now, that is his statement. In your 
experience, are you aware of consumer complaints regarding 
spoilage or do you agree with Dr. Sebranek's finding that there 
hasn't been an issue over this with consumers?
    Mr. Almanza. I am not aware of any consumer complaints with 
carbon monoxide packaging.
    Mr. Goodlatte. I wonder if either of your deputies could 
indicate whether they are aware of the agency receiving 
complaints about problems with purchase of meat that appeared 
to be fresh because of the use of carbon monoxide technology 
but proved to be spoiled?
    Mr. Derfler. I am not aware of any such complaints.
    Mr. Goodlatte. Very good.
    Dr. Engeljohn. I am not aware either although we do have a 
consumer complaint monitoring system by which we do receive 
consumer complaints and that would be one place where we would 
go to look to see if there have been any registered there.
    Mr. Goodlatte. But you are not aware of any registered 
there as of this point?
    Dr. Engeljohn. I am not.
    Mr. Goodlatte. Okay. Thank you very much, Mr. Chairman.
    Mr. Boswell [presiding.] Thank you. I just have one 
question and then I will defer to you, Mr. Walz. Earlier you 
heard a quote from Dr. Rubin at Iowa State that critics that 
say MAP is deceptive and hazardous are incorrect. Do you agree 
with that?
    Mr. Almanza. I am sorry, I didn't----
    Mr. Boswell. Critics have said that using modified 
procedures, MAP, is deceptive and hazardous. And we asked one 
of our previous witnesses if he thought that was so and he said 
no. Do you agree?
    Mr. Almanza. I would say that the FDA determines the safety 
of that process and all we do is evaluate it for its 
suitability.
    Mr. Boswell. Do you think it is deceptive and hazardous, 
yes or no?
    Mr. Almanza. No.
    Mr. Boswell. Thank you. Mr. Walz please.
    Mr. Walz. Thank you, Mr. Chairman, and thanks to our panel. 
I am sorry I didn't get to get in all of your testimony but I 
have read it. We are here today because FDA received a petition 
to withdraw the Generally Recognized As Safe designation, is 
that correct?
    Mr. Almanza. That is correct.
    Mr. Walz. All right. As you know of and I guess the FDA 
might be the best but I will ask the USDA people here, have 
they ever received a consumer complaint on low-oxygen 
packaging?
    Mr. Almanza. Not that I am aware of.
    Mr. Walz. Okay. Is there any scientific data that shows 
lox-oxygen environment has hurt anyone in this country?
    Mr. Almanza. No.
    Mr. Walz. Okay. Irradiation, as a way to kill pathogens, 
will not alleviate the need for packaging to move that from the 
point of production through the whole food chain, is that 
correct?
    Mr. Almanza. Yes.
    Mr. Walz. So the point that had been made by our previous 
witnesses is, if the point of the production at the initial 
stage, if it is done correctly under proper conditions of 
safety, the pathogens will not be there. Meat can spoil and 
still not have E. coli, correct?
    Mr. Almanza. Correct.
    Mr. Walz. So the issue of this is that we have a procedure 
that appears by all accounts to move food through the safety 
system, does not have an adverse affect on consumers and its 
only, I guess, one take on this is that people say they are 
being misled because the meat is red longer or something? But 
we have also heard that the same thing could be said for high-
oxygen environments where a person could cook it, it would turn 
brown, it wouldn't be cooked to 165 degrees, is that correct as 
you understand it?
    Mr. Almanza. As I understand it.
    Mr. Walz. So how will USDA respond? You will wait for FDA 
to make a determination on the Generally Recognized As Safe and 
then you will proceed accordingly on that?
    Mr. Almanza. Yes, sir.
    Mr. Walz. Will you have any ability, sir, to go back and 
say, ``Why are we going through all of this when, again, we 
have had no complaints, no sickness and the only thing we have 
is a petition from a competing technology? Does that seem like 
the right way to do business for our consumers and consumer 
safety is?'' I guess, what I am asking is, where are you at in 
this process?
    Mr. Almanza. Well, I would say that we would get together 
with FDA and go through the process of determining the safety 
of the ingredient and just work through it as we did the first 
time.
    Mr. Walz. I am trying to figure out as to the 
jurisdictional part that you have here--we have directors here, 
Food Safety and Inspection Service and things like that. Do you 
gentlemen have the ability to weigh in on this, I mean, as 
independent voices on this?
    Mr. Derfler. We consult with FDA but FDA makes the safety 
determination.
    Mr. Walz. So they will make the final decision?
    Mr. Derfler. With respect to the safety.
    Mr. Walz. Okay. And as they come down on that, then the 
procedure would be back through FDA if we believe that is not 
correct. But USDA is the administering authority, if you would, 
as opposed to the authority that is going to authorize what is 
safe and what is not.
    Mr. Derfler. Yes.
    Mr. Walz. But they do consult with you?
    Mr. Derfler. Yes.
    Mr. Walz. They do let you know. Okay. I have no further 
questions. I yield back.
    Mr. Boswell. Well thank you very much. I think that brings 
us to closure on our questions and Mr. Moran has indicated he 
has no questions. I want to, on behalf of the Chairman and all 
of us, on the Committee, thank you very much for your time to 
come up here and meet with us today and we will come back to 
you as we have further questions. So we want to extend our 
appreciation to this panel, the previous panel, and we look 
forward to continued work with you. Thank you very much. That 
brings us to closure.
    [Whereupon, at 4:10 p.m., the Committee was adjourned.]
    [Material submitted for inclusion in the record follows:]
      
                           Submitted Material

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                             STATS Articles

                  Trevor Butterworth, October 26, 2007

                      A Scandal Over Meat Safety?

    Michigan Democrats raise fears over ``revolutionary'' meat 
packaging process that reduces risk of E. coli, keeps meat fresh 
longer. Food safety experts say politicians misleading public on 
science. Is a massive Washington lobbying effort by rival Michigan-
based company behind smear campaign?
    On September 13, Michael Doyle, a world-leading expert in food 
safety addressed the Canadian Meat Council symposium on ``Advances in 
Antimicrobial Interventions for Quality Control.'' Doyle, who is 
Regents Professor and Director of the Center for Food Safety at the 
University of Georgia, discussed a study that he and his colleague Dr. 
Li Ma had undertaken which showed that a popular wrapping system that 
vacuumed out air and added a tiny amount of carbon monoxide, nitrogen 
and carbon dioxide (known as MAP-CO) could not only keep meat fresher 
for longer than conventionally wrapping, but could significantly retard 
the growth of the E. coli O157:H7 bacterium in ground beef when the 
meat was stored above the recommended temperature.
    ``MAP-CO-treated meat is a revolutionary technology providing 
greater protection against foodborne pathogens and extended shelf life 
to fresh beef,'' Doyle told the symposium.
    And yet, despite E. coli O157:H7 being one of the leading causes of 
food-borne illnesses in the United States, with an estimated 73,000 
cases of infection and 61 deaths each year, and despite the potential 
reduction in wastage from meat staying fresher for significantly 
longer, MAP-CO meat is being pulled from the shelves largely due to a 
campaign by two Michigan Congressmen and various environmental groups 
claiming that the public is being deceived.
    On June 25th, U.S. Rep John Dingell (D-MI), Chairman of the 
Committee on Energy and Commerce, Rep Bart Stupak (D-MI), Chairman of 
the Subcommittee on Oversight and Investigations, sent letters to 
Safeway Stores, Inc., Tyson Foods, Inc., Pactiv Corporation and Precept 
Foods LLC (Hormel Foods Corporation/Cargill Incorporated), which, as 
their press release noted, ``questioned the companies' practice of 
packing fresh meat in carbon monoxide, which artificially colors the 
product and disguises spoilage.''
    In less than a month, Safeway dropped MAP-CO packaged meat; and 
Reps Dingell and Stupak released another statement praising the 
company's decision:

        `` `Americans place a great deal of trust in the hands of 
        grocers and retailers to sell them safe and healthy products,' 
        said Dingell. `The practice of exposing meat to carbon monoxide 
        deceives consumers and is a potential health hazard. I commend 
        Safeway for its decision to stop selling these meats and I hope 
        other grocers and meat packers will follow suit.' ''

    But according to food safety experts and microbiologists at leading 
academic food safety programs there is simply no science to support the 
charges made Reps Dingell and Stupak against MAP-CO. It also turns out 
that Kalsec, a Michigan company with a rival but less effective method 
of preserving meat freshness, has spent around $850,000 to lobby 
Congress on food safety issues, with some of that money going 
specifically to lobby Reps Dingell and Stupak on MAP-CO.
Is carbon monoxide (CO) a colorant?
    In contrast to Rep's Dingell and Stupak description of MAP-CO (the 
acronym stands for ``modified atmosphere packaging with carbon 
monoxide''), scientists say the process is not an artificial way of 
coloring meat.
    ``Meat is muscle tissue,'' explains Susan Brewer, Professor of Food 
Science at the University of Illinois, ``and in an oxygen-deprived 
environment--inside an animal--it's purple. For it to be red, it has to 
be exposed to air, and that's the color consumers identify as fresh.''
    But here's the problem: exposure to air will turn refrigerated meat 
brown within a few days, and even though it may be perfectly safe to 
eat, consumers, typically, see the meat as spoiled. Unfortunately 
consumers are not ready to buy purple-colored oxygen-free vacuum-packed 
meat either (which is the way meat is packed for the wholesale 
industry).
    ``The red color has been shown many, many times to be critical to 
consumer selection and purchase at retail. So, for fresh meat in 
retail, oxygen exposure, either using oxygen permeable films or a high-
oxygen package atmosphere has always been necessary,'' says Joseph 
Sebranek, University Professor in the department of Animal Science, 
Food Science and Human Nutrition at Iowa State University (via e-mail).
    Modified atmosphere packaging has been around for years, but the 
key to implementing in wrapping meat for retail was to find a way of 
achieving the bright red color that consumers understood as signaling 
freshness. The solution was to add a miniscule quantity of carbon 
monoxide (CO) into a package that contains no oxygen. ``The monoxide 
bonds to the exact site as the oxygen molecule,'' says Brewer, ``but 
the bond is much tighter--it's stuck--and it keeps the meat a bright 
red color. It's not a colorant per se.'' The Food and Drug 
Administration an the Food Safety and Inspection Service (FSIS) of the 
U.S. Department of Agriculture have permitted MAP-CO packaging of meat 
since February, 2002.
    None of the experts interviewed by STATS saw it as an artificial 
coloring process. ``The color is still derived from the meat pigment, 
not an external coloring agent, and the color is the same as that from 
oxygen. Therefore, this is not deceiving consumers,'' says Sebranek.
    ``MAP with a small amount of carbon monoxide does not add a new 
color to meat,'' says Alden Booren, Professor of Food Science and 
Nutrition at Michigan State University, (via e-mail). ``It reacts with 
the naturally occurring pigment in meat (myoglobin) to produce a form 
of the pigment that is more stable and is not readily distinguishable 
from the normal (oxygenated) form of the pigment. Thus it is not a 
`coloring' but rather the natural pigment in a slightly different 
form.''
MAP with CO does not disguise spoilage--it slows it down
    Rep's Dingell and Stupak's contention that MAP-CO ``disguises 
spoilage'' is also dismissed by food safety experts and scientists. The 
MAP-CO system eliminates oxygen, and without oxygen the key bacterium 
that generates spoilage is suppressed. ``Pseudomonas, which in not 
pathogenic, is capable of spoiling fresh beef stored in air at 
refrigeration temperatures within a few days,'' says P. Michael 
Davidson, Professor of Food Microbiology at the University of 
Tennessee's Institute for Agriculture (via e-mail). ``If we package the 
product with low or no oxygen MAP, this microorganism is incapable of 
growth.''
    ``One of the benefits of the CO system is elimination of oxygen. 
That alone provides for a longer product shelf life because both 
chemical oxidation (and resulting off-flavors) and aerobic spoilage 
bacteria (the fastest growing group of bacteria on fresh meat) are 
suppressed,'' says Sebranek. ``What so many players in this game have 
missed is that CO permits the use of additional antimicrobial 
treatments that provide for greater control of bacterial growth. For 
example, it is well-recognized that carbon dioxide will slow the growth 
of many bacteria. However, more than about 30% or so carbon dioxide in 
a modified atmosphere package with oxygen will cause meat browning. 
With carbon monoxide, the amount of carbon dioxide that can be used in 
the package is much greater because there is no discoloration, thus 
bacterial control is improved.''
    The result, as Doyle explains via e-mail, is that ``The shelf life 
of refrigerated (<40 F) MAP-CO ground beef is 2 to 3 weeks compared to 
about 3 to 5 days for typical over-wrapped ground beef.''
    But the most recent finding about MAP is that the CO component also 
represses the growth of harmful bacteria when ground beef is stored 
above recommended refrigeration temperatures. ``After 4 days at 50 F, 
E. coli O157 cell numbers in over-wrapped ground beef increase by 100 
fold or more compared to MAP-CO product,'' says Doyle. ``Hence, 
refrigerated or mildly temperature abused MAP-CO ground beef has better 
quality and microbial safety characteristics than over-wrapped beef 
stored under similar conditions.''
When MAP-CO meat spoils
    Much of the controversy over MAP-CO is due to the assumption that 
the color of meat indicates whether it's safe or not--and that if you 
make the red color more resilient, you can disguise spoilage and pass 
old meat onto the consumer. But MAP-CO meat will spoil after 3 weeks, 
and, as Brewer notes, the key indicator of spoilage is not color but 
odor. ``If the meat was spoiled, you would know it,'' she says.
    ``The COMb (the red pigment form of CO compared to that formed in 
air, Oxymyoglobin = OMb) does NOT mask spoilage,'' says Melvin Hunt, 
Professor of Animal Sciences and Industry at Kansas State University's 
Food Science Institute (via e-mail). ``Most of the opponents of the use 
of CO in MAP do not understand the dynamics of meat color (a delicate 
balance between being purple-red, bright red, and tan/brown).''
    ``The use of MAP containing carbon monoxide shifts the consumer's 
ability to detect spoilage from looking at the meat, and deciding it is 
unacceptable based on color, to examining the sell-by dates or looking 
for gas production or a bulged package,'' says Davidson. ``While it 
does put more responsibility on the consumer to read the package, using 
color to determine acceptability is not foolproof either. Just because 
the meat doesn't look particularly bad is not a sign that it is not 
spoiled or close to spoilage and the reverse is also true. Actually, 
most consumers probably use their noses to make a final determination 
as to whether a product is acceptable to cook and that wont change with 
MAP.''
    Davidson notes that MAP puts an onus on processors and retailers to 
set realistic sell-by dates.
    ``The bottom line here, says Hunt, is that consumers must do their 
part and smell the product before cooking and consumption--not a new or 
alarming fact.''
Is a rival industry behind the misinformation campaign?
    Professor Booren wrote to Rep Dingell a year ago to explain why 
describing MAP with CO as a colorant was misleading, and why, after 
reviewing all the peer-reviewed literature on the technology, he 
concluded that ``the safety of the food supply has not been 
compromised.'' None of the scientists interviewed saw any reason for 
supermarkets to drop MAP-CO meat or for consumers to be alarmed.
    ``My opinion,'' says Doyle, ``is that MAP-CO treatment of ground 
beef provides a better quality product for an extended period of time 
than over-wrapped ground beef. This reduces wastage and gives consumers 
more flexibility in time to use refrigerated ground beef.''
    But such expert testimony appears to have had no impact on the 
political campaign against MAP. ``The Safeway story is just the tip of 
the ice berg,'' e-mails Hunt. ``The good Congressmen from Michigan who 
seem to be championing the charge against CO are just doing their job 
for a Michigan company (Kalsec<SUP>'</SUP>). Kalsec<SUP>'</SUP> was 
going to loose tons of business if the meat industry lead by Wal-Mart 
switched from the High-oxygen MAP system to the Carbon monoxide MAP 
system. So they poisoned the pot with a lot of WRONG science, which 
isn't very hard to do since CO is not the most user-friendly 
compound.''
    Kalsec has also ``petitioned the FDA to reconsider the approval of 
CO packaging and that has been generating numerous media releases that 
are strongly worded criticisms of the concept,'' says Sebranek. 
``Kalsec is a supplier of antioxidants used in high oxygen packaging 
systems, products that are not needed in the CO package. Their 
motivation, in my opinion, is economic.''
    Lobbying reports show that Kalsec paid $840,000 to the Washington, 
D.C. law firm Covington and Burling to lobby Congress and other Federal 
agencies on food safety issues, over the past year, as well as making 
two sub-$10,000 payments to Prism Public Affairs to lobby specific 
Congressmen, including Reps Dingell and Stupak on MAP-CO issues.
    And media coverage of the issue has tended to play up fears about 
the process. ``Unsafe food and related public health consequences makes 
a much better story than does safe food,'' says Brewer. Don Berdahl, 
Kalsec's Vice President was extensively cited in a Washington Post 
story on the controversy, which also featured advocacy groups voicing 
their concerns about safety. No independent food safety experts were 
quoted in the story; instead, the Post turned to FDA and industry 
sources.
    A similar story by USA Today featured Berdahl and 
Kalsec<SUP>'</SUP> prominently, but also failed to quote any 
independent food safety experts.
    The result is a sense of alarm among academics that an enormously 
useful technology--one that might save an enormous amount of meat from 
being wasted--could be doomed.
    On September 17, the American Meat Science Association wrote to the 
House Agriculture Committee to warn about the misinformation that has 
characterized recent discussion of MAP-CO and to announce the 
commission of a white paper by top scientists in meat color chemistry 
and safety.
    ``Like any other approved technology,'' the letter concludes, ``the 
use of CO in modified atmosphere packaging applications deserves a 
chance to succeed or fail on its scientific merits, and not on 
misinformation.''

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                  <all>

</pre></body></html>
